APPENDIX

1a

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 19-1764
EDWARD A. CANIGLIA,
Plaintiff, Appellant,
v.
ROBERT F. STROM, as the Finance Director of the
City of Cranston, ET AL.,
Defendants, Appellees.
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF RHODE ISLAND
(Hon. John J. McConnell, Jr., U.S. District Judge)
Before
Barron, Circuit Judge, Souter, * Associate Justice,
and Selya, Circuit Judge.
Thomas W. Lyons, with whom Rhiannon S.
Huffman and Strauss, Factor, Laing & Lyons were
on brief, for appellant.
Marc DeSisto, with whom Patrick K. Cunningham,
Caroline V. Murphy, and DeSisto Law LLC were on
brief, for appellees.
March 13, 2020
*

Hon. David H. Souter, Associate Justice (Ret.) of the
Supreme Court of the United States, sitting by designation.

2a
SELYA, Circuit Judge. There are widely varied
circumstances, ranging from helping little children to
cross busy streets to navigating the sometimes stormy
seas of neighborhood disturbances, in which police
officers demonstrate, over and over again, the
importance of the roles that they play in preserving
and protecting communities. Given this reality, it is
unsurprising that in Cady v. Dombrowski, 413 U.S.
433 (1973), the Supreme Court determined, in the
motor vehicle context, that police officers performing
community caretaking functions are entitled to a
special measure of constitutional protection. See id.
at 446–48 (holding that warrantless search of disabled
vehicle’s trunk to preserve public safety did not violate
Fourth Amendment). We hold today—as a matter of
first impression in this circuit—that this measure of
protection extends to police officers performing
community caretaking functions on private premises
(including homes). Based on this holding and on our
other conclusions, we affirm the district court’s entry
of summary judgment for the defendants in this
highly charged case.
I.

BACKGROUND

We start with the cast of characters. At the times
material hereto, plaintiff-appellant Edward A.
Caniglia resided with his wife, Kim Caniglia, in
Cranston, Rhode Island. The defendants include the
City of Cranston (the City), Colonel Michael J.

3a
Winquist (Cranston’s police chief), and five Cranston
police officers. 1
Having identified the central players, we rehearse
the relevant facts in the light most congenial to the
summary judgment loser (here, the plaintiff). See
Avery v. Hughes, 661 F.3d 690, 691 (1st Cir. 2011). On
August 20, 2015, marital discord erupted at the
Caniglia residence. During the disagreement, the
plaintiff retrieved a handgun from the bedroom—a
handgun that (unbeknownst to Kim in that moment)
was unloaded. Kim initially maintained that the
plaintiff also brought out a magazine for the gun, but
she subsequently stated in a deposition that she only
remembered his retrieval of the handgun. Throwing
the gun onto the dining room table, the plaintiff said
something like “shoot me now and get it over with.”
Although the plaintiff suggests that this outburst was
merely a “dramatic gesture,” Kim took it seriously:
worried about her husband’s state of mind even after
he had left to go for a ride,” she returned the gun to its
customary place and hid the magazine. Kim also
decided that she would stay at a hotel for the night if
the plaintiff had not calmed down when he returned.
She began to pack a bag.

1 The plaintiff sued Colonel Winquist and the five officers—
Brandon Barth, Russell C. Henry, Jr., John Mastrati, Wayne
Russell, and Austin Smith—in both their individual and official
capacities. He also sued a sixth officer, Robert Quirk, but the
entry of judgment in Quirk’s favor has not been appealed.
Additionally, the plaintiff sued the City by and through its
Finance Director, Robert F. Strom. See R.I. Gen. Laws § 45-15-5.

4a
The plaintiff’s return sparked a second spat. This
time, Kim departed to spend the night at a nearby
hotel. When Kim spoke to the plaintiff by telephone
that evening, he sounded upset and “[a] little” angry.
The next morning, Kim was unable to reach her
husband by telephone. Concerned that he might have
committed suicide or otherwise harmed himself, she
called the Cranston Police Department (CPD) on a
non-emergency line and asked that an officer
accompany her to the residence. She said that her
husband was depressed and that she was “worried for
him.” She also said that she was concerned “about
what [she] would find” when she returned home.
Soon thereafter, Officer Mastrati rendezvoused
with Kim. She recounted her arguments with the
plaintiff the previous day, his disturbing behavior and
statements, and her subsequent concealment of the
magazine. At some point during this discussion, Kim
mentioned that the handgun her husband produced
the previous day had not been loaded. The record
contains conflicting evidence about whether Kim told
the officers that the plaintiff brought out the
magazine in addition to the unloaded handgun.
Although Kim made clear that she was not concerned
for her own safety, she stressed that, based on her fear
that her husband might have committed suicide, she
was “afraid of what [she] would find when [she] got
home.”
Officer Mastrati then called the plaintiff, who said
that he was willing to speak with the police in person.
By this time, Sergeant Barth and Officers Russell and

5a
Smith had arrived on the scene. The four officers went
to the residence and spoke with the plaintiff on the
back porch while Kim waited in her car. The plaintiff
corroborated Kim’s account, stating that he brought
out the firearm and asked his wife to shoot him
because he was “sick of the arguments” and “couldn’t
take it anymore.” When the officers asked him about
his mental health, he told them “that was none of their
business” but denied that he was suicidal. Officer
Mastrati subsequently reported that the plaintiff
“appeared normal” during this encounter, and Officer
Russell described the plaintiff’s demeanor as calm and
cooperative.
This appraisal, though, was not
unanimous: Sergeant Barth thought the plaintiff
seemed somewhat “[a]gitated” and “angry,” and Kim
noted that he became “very upset” with her for
involving the police.
The ranking officer at the scene (Sergeant Barth)
determined, based on the totality of the
circumstances, that the plaintiff was imminently
dangerous to himself and others. After expressing
some uncertainty, the plaintiff agreed to be
transported by ambulance to a nearby hospital for a
psychiatric evaluation. The plaintiff claims that he
only agreed to be transported because the officers told
him that his firearms would not be confiscated if he
assented to go to the hospital for an evaluation. But
the record contains no evidence from any of the four
officers who were present at the residence suggesting
that such a promise was made.
At some point that morning, someone (the record is
unclear as to whether the “someone” was Kim or the

6a
plaintiff) informed the officers that there was a second
handgun on the premises. After the plaintiff departed
by ambulance for the hospital, unaccompanied by any
police officer, Sergeant Barth decided to seize these
two firearms. A superior officer (Captain Henry)
approved that decision by telephone. Accompanied by
Kim, one or more of the officers entered the house and
garage, seizing the two firearms, magazines for both
guns, and ammunition. Kim directed the officers to
each of the items seized. The parties dispute both
whether Kim indicated that she wanted the guns
removed and whether the officers secured her
cooperation by telling her that her husband had
consented to confiscation of the firearms. There is no
dispute, though, that the officers understood that the
firearms belonged to the plaintiff and that he objected
to their seizure.
The plaintiff was evaluated at Kent Hospital but
not admitted as an inpatient. In October of 2015—
after several unsuccessful attempts to retrieve the
plaintiff’s firearms from the CPD—the plaintiff’s
attorney formally requested their return.
The
firearms were returned in December. The CPD never
prevented the plaintiff from obtaining other firearms
at any time. Nor did the events at issue involve any
criminal offense or investigation.
Shortly before his firearms were returned, the
plaintiff repaired to the federal district court, pressing
a salmagundi of claims stemming from the
defendants’ alleged seizures of his person and his
firearms. These claims included, as relevant here,
claims brought pursuant to 42 U.S.C. § 1983 alleging

7a
violations of the Second and Fourth Amendments, as
well as state-law claims alleging violations of the
Rhode Island Constitution; the Rhode Island Mental
Health Law (RIMHL), R.I. Gen. Laws §§ 40.1-5-1 to 43; and the Rhode Island Firearms Act (RIFA), R.I.
Gen. Laws §§ 11-47-1 to -63.
Once discovery was completed, the parties crossmoved for summary judgment. With one exception,
the district court granted summary judgment in the
defendants’ favor on the plaintiff’s federal and statelaw claims. See Caniglia v. Strom, 396 F. Supp. 3d
227, 242 (D.R.I. 2019). 2 This timely appeal followed.
II.

ANALYSIS

Orders granting summary judgment engender de
novo review. See Avery, 661 F.3d at 693. In
conducting this tamisage, we scrutinize the record in
the light most hospitable to the nonmovant (here, the
plaintiff) and affirm “only if the record reveals ‘that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of
law.’” Id. (quoting Fed. R. Civ. P. 56(a)). We are not
wedded to the district court’s reasoning but, rather,
may affirm “on any ground made manifest by the
2

The district court granted summary judgment in the
plaintiff’s favor on one claim. See Caniglia, 396 F. Supp. 3d at
237–38. Specifically, the court ruled that the City violated the
plaintiff’s due process rights in two ways: by seizing his firearms
without providing notice of any mechanism to secure their return
and by arbitrarily denying his initial requests for their return.
See id. at 238. Pursuant to a stipulation, the court later awarded
the plaintiff nominal damages. No appeal has been taken from
these rulings.

8a
record.” Mason v. Telefunken Semiconductors Am.,
LLC, 797 F.3d 33, 38 (1st Cir. 2015). Against this
backdrop, we examine the plaintiff’s claims one by
one.
A.

The Fourth Amendment Claims.

The centerpiece of the plaintiff’s asseverational
array is his contention that the defendant officers
offended the Fourth Amendment both by transporting
him involuntarily to the hospital for a psychiatric
evaluation and by seizing two firearms after a
warrantless entry into his home. We begin with
constitutional bedrock:
the Fourth Amendment
guarantees “[t]he right of the people to be secure in
their persons, houses, papers, and effects, against
unreasonable searches and seizures.” U.S. Const.
amend. IV. The officers assert that their conduct at
the plaintiff’s residence constituted a reasonable
exercise
of
their
community
caretaking
responsibilities and thus did not transgress the
Fourth Amendment. The district court agreed. 3 See
3

The district court ruled in the alternative that qualified
immunity provided a shield against Fourth Amendment liability.
See Caniglia, 396 F. Supp. 3d at 235–36; see also McKenney v.
Mangino, 873 F.3d 75, 80 (1st Cir. 2017) (“Qualified immunity is
a doctrine that shelters government officials from civil damages
liability ‘insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a
reasonable person would have known.’” (quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982))). Qualified immunity,
though, offers no refuge either to the City or to the officers in their
official capacities. See Haley v. City of Boston, 657 F.3d 39, 51
(1st Cir. 2011); Nereida-Gonzalez v. Tirado-Delgado, 990 F.2d
701, 705 (1st Cir. 1993). Because we are able to resolve the

9a
Caniglia, 396 F. Supp. 3d at 234–35. Before plunging
into these turbulent waters, we pause to frame the
issues and to clarify certain threshold matters.
1. Framing the Issues. The plaintiff’s Fourth
Amendment claims focus on two alleged seizures, one
of his person and the other of his firearms. The
seizure of a person occurs when an objectively
reasonable individual, standing in that person’s
shoes, would not have “felt free to cease interaction
with the officer[s] and depart.” United States v.
Espinoza, 490 F.3d 41, 48–49 (1st Cir. 2007); see
United States v. Drayton, 536 U.S. 194, 200–01 (2002).
In contrast, a seizure of personal property occurs
when there has been “some meaningful interference
with an individual’s possessory interests in that
property.” United States v. Jacobsen, 466 U.S. 109,
113 (1984).
Although the plaintiff concedes that he ultimately
agreed to be transported to the hospital for a
psychiatric evaluation, he nonetheless complains that
he was subjected to an involuntary seizure. In
support, he avers that the defendant officers extracted
his consent through impermissible chicanery, falsely
promising that they would not confiscate his firearms
if he agreed to go to the hospital for a psychiatric
evaluation. The defendants do not challenge this
averment head-on but, rather, assume for purposes of
this appeal that a seizure of the plaintiff’s person
occurred. Even though there is no evidence that any
plaintiff’s Fourth Amendment claims on the merits, we do not
address the district court’s alternative ruling.

10a
police officers, emergency services personnel, or
hospital staff physically compelled the plaintiff to
submit to a psychiatric evaluation once he reached the
hospital, we assume—favorably to the plaintiff—that
the involuntary seizure of his person lasted through
his eventual psychiatric evaluation. 4
Two other threshold matters demand our attention.
The first requires some stage-setting. The record
makes pellucid that the officers’ initial presence on
the plaintiff’s back porch was lawful: the plaintiff’s
wife had summoned them to the premises and the
plaintiff himself had agreed to speak with the officers
outside the residence. See Florida v. Jardines, 569
U.S. 1, 7–8 (2013) (observing that police do not violate
Fourth Amendment by occupying curtilage when
homeowner has “given his leave (even implicitly) for
them to do so”). But whether the officers’ entry into
the home after the plaintiff’s departure was
consensual is a more nuanced matter.
Although the parties agree that the plaintiff’s wife
led the officers to both of the firearms, the plaintiff
asserts that the officers secured his wife’s permission
to enter the home and seize the firearms by falsely
4

In indulging this assumption, we do not abandon the
longstanding principle that “deception is a well-established and
acceptable tool of law enforcement.” Pagán-González v. Moreno,
919 F.3d 582, 591 (1st Cir. 2019). Although some species of
deception (such as false claims of a warrant or fabricated
exigencies) may vitiate consent, see id. at 594–95, we are aware
of no persuasive precedent establishing that an officer’s strategic
deployment of an empty promise, standing alone, constitutes
coercion sufficient to vitiate consent in this context.

11a
representing that the plaintiff had consented to their
confiscation.
Even though deception is not
categorically foreclosed as a tool of police work, see
supra note 4, consent may sometimes be deemed
involuntary if gained through a police officer’s
apocryphal claim of authority, see Pagán-González v.
Moreno, 919 F.3d 582, 593, 596 (1st Cir. 2019); United
States v. Vázquez, 724 F.3d 15, 22 (1st Cir. 2013);
United States v. Miller, 589 F.2d 1117, 1132 (1st Cir.
1978). Given the factual disputes surrounding the
representations made to the plaintiff’s wife, we think
it prudent to assume that the officers’ entry into the
home was not only warrantless but also
nonconsensual.
The remaining threshold matter requires no
assumption on our part.
The undisputed facts
establish that a seizure of the plaintiff’s firearms
occurred. It is uncontroverted that the defendant
officers understood that the two handguns belonged to
the plaintiff and that he objected to any confiscation
of them. And in this venue, the defendants press no
argument that they secured valid consent from the
plaintiff’s wife to seize the firearms.
2. The Scope of the Community Caretaking
Doctrine. The defendants seek to wrap both of the
contested seizures in the community caretaking
exception to the warrant requirement. Notably, they
do not invoke either the exigent circumstances or
emergency aid exceptions to the warrant

12a
requirement. 5 Nor do the defendants contend that
their seizures of the plaintiff and his firearms were
carried out pursuant to a state civil protection statute.
See, e.g., Alfano v. Lynch, 847 F.3d 71, 77 (1st Cir.
2017).
The community caretaking exception derives from
Cady, a case in which the Supreme Court upheld the
warrantless search of a disabled vehicle when the
police reasonably believed that the vehicle’s trunk
contained a gun and the vehicle was vulnerable to
vandals. See 413 U.S. at 446–48. The Cady Court
5

As we have previously noted, there is substantial overlap
between the community caretaking, exigent circumstances, and
emergency aid exceptions. See MacDonald v. Town of Eastham,
745 F.3d 8, 13–14, 13 nn.2–3 (1st Cir. 2014). “[C]ourts do not
always draw fine lines” between these exceptions. Id. at 13; see
Sutterfield v. City of Milwaukee, 751 F.3d 542, 553, 561 (7th Cir.
2014) (resolving analogous case under emergency aid exception
but acknowledging that community caretaking doctrine “would
potentially be the best fit”). Because the defendants seek shelter
only behind the community caretaking exception, we have no
occasion to craft crisp distinctions between those three
exceptions.
We doubt, however, that either the exigent
circumstances exception or the emergency aid exception would be
a perfect fit for the full tableau of this case. On the one hand,
exigency “is defined by a time-urgent need to act that makes
resort to the warrant process impractical”—an inquiry that is of
limited utility outside the criminal investigatory process.
Sutterfield, 751 F.3d at 559–60. On the other hand, the
emergency aid exception is typically employed in scenarios in
which an individual within a dwelling has already been seriously
injured or may be about to sustain such injuries in a matter of
moments. See, e.g., Michigan v. Fisher, 558 U.S. 45, 45–46, 48
(2009) (per curiam); Brigham City v. Stuart, 547 U.S. 398, 406
(2006); Hill v. Walsh, 884 F.3d 16, 23 (1st Cir. 2018).

13a
explained that police officers frequently engage in
such “community caretaking functions, totally
divorced from the detection, investigation, or
acquisition of evidence relating to the violation of a
criminal statute.” Id. at 441. Police activity in
furtherance of such functions (at least in the motor
vehicle context) does not, the Court held, offend the
Fourth Amendment so long as it is executed in a
reasonable manner pursuant to either “state law or
sound police procedure.” Id. at 446–48; see South
Dakota v. Opperman, 428 U.S. 364, 374–75 (1976). In
reaching this conclusion, the Cady Court noted the
“constitutional difference between searches of and
seizures from houses and similar structures and from
vehicles,” a distinction stemming from the
“ambulatory character” of vehicles and police officers’
“extensive, and often noncriminal contact with
automobiles.” 413 U.S. at 442; see Opperman, 428
U.S. at 367–68.
Since Cady, the community caretaking doctrine has
become “a catchall for the wide range of
responsibilities that police officers must discharge
aside from their criminal enforcement activities.”
United States v. Rodriguez-Morales, 929 F.2d 780, 785
(1st Cir. 1991); see MacDonald v. Town of Eastham,
745 F.3d 8, 12 (1st Cir. 2014). In accordance with “this
evolving principle, we have recognized (in the motor
vehicle context) a community caretaking exception to
the warrant requirement.” MacDonald, 745 F.3d at
12. Elucidating this exception, we have held that the
Fourth Amendment’s imperatives are satisfied when
the police perform “non-investigatory duties,

14a
including community caretaker tasks, so long as the
procedure employed (and its implementation) is
reasonable.” Rodriguez-Morales, 929 F.2d at 785.
Police officers enjoy wide latitude in deciding how best
to
execute
their
community
caretaking
responsibilities and, in the typical case, need only act
“within the realm of reason” under the particular
circumstances. Id. at 786; see Lockhart-Bembery v.
Sauro, 498 F.3d 69, 75 (1st Cir. 2007).
Until now, we have applied the community
caretaking exception only in the motor vehicle
context. See United States v. Davis, 909 F.3d 9, 16–17
(1st Cir. 2018), cert. denied, 139 S. Ct. 1352 (2019);
Boudreau v. Lussier, 901 F.3d 65, 72–73 (1st Cir.
2018); Jaynes v. Mitchell, 824 F.3d 187, 197 (1st Cir.
2016); United States v. Gemma, 818 F.3d 23, 32 (1st
Cir. 2016); Lockhart-Bembery, 498 F.3d at 75–76;
United States v. Coccia, 446 F.3d 233, 238–40 (1st Cir.
2006); Rodriguez-Morales, 929 F.2d at 784–87; cf.
Miller, 589 F.2d at 1125 (upholding boarding of
abandoned boat under combination of community
caretaking and exigent circumstances exceptions).
But on one notable occasion, we have recognized a
community caretaking function extending beyond
vehicle searches and impoundment, holding that the
temporary seizure of a motorist for the purpose of
alleviating dangerous roadside conditions could be a
reasonable exercise of the community caretaking
function. See Lockhart-Bembery, 498 F.3d at 71–72,
75–76.
To be sure, the doctrine’s reach outside the motor
vehicle context is ill-defined and admits of some

15a
differences among the federal courts of appeals. See
Matalon v. Hynnes, 806 F.3d 627, 634 (1st Cir. 2015);
MacDonald, 745 F.3d at 13. A few circuits have
indicated that the community caretaking exception
cannot justify a warrantless entry into a home. See
Sutterfield v. City of Milwaukee, 751 F.3d 542, 554
(7th Cir. 2014); Ray v. Township of Warren, 626 F.3d
170, 177 (3d Cir. 2010); cf. United States v. Pichany,
687 F.2d 204, 208–09 (7th Cir. 1982) (per curiam)
(holding community caretaking exception not
applicable to warrantless entry into business
warehouse). Several other circuits, though, have
recognized that the doctrine allows warrantless
entries onto private premises (including homes) in
particular circumstances. See, e.g., Rodriguez v. City
of San Jose, 930 F.3d 1123, 1137–41 (9th Cir. 2019),
petition for cert. filed, No. 19-1057 (U.S. Feb. 25,
2020); United States v. Smith, 820 F.3d 356, 360–62
(8th Cir. 2016); United States v. Rohrig, 98 F.3d 1506,
1521–23 (6th Cir. 1996); United States v. York, 895
F.2d 1026, 1029–30 (5th Cir. 1990). So, too, a handful
of circuits—including our own—have held that police
may sometimes seize individuals or property other
than motor vehicles in the course of fulfilling
community caretaking responsibilities. See, e.g.,
Rodriguez, 930 F.3d at 1138–41; Vargas v. City of
Philadelphia, 783 F.3d 962, 971–72 (3d Cir. 2015);
United States v. Gilmore, 776 F.3d 765, 769, 772 (10th
Cir. 2015); Lockhart-Bembery, 498 F.3d at 75–76;
Samuelson v. City of New Ulm, 455 F.3d 871, 877–78
(8th Cir. 2006); United States v. Rideau, 949 F.2d 718,

16a
720 (5th Cir. 1991), vacated on other grounds, 969
F.2d 1572 (5th Cir. 1992) (en banc).
Today, we join ranks with those courts that have
extended the community caretaking exception beyond
the motor vehicle context. In taking this step, we
recognize what we have termed the “special role” that
police officers play in our society. Rodriguez-Morales,
929 F.2d at 784. After all, a police officer—over and
above his weighty responsibilities for enforcing the
criminal law—must act as a master of all
emergencies, who is “expected to aid those in distress,
combat actual hazards, prevent potential hazards
from materializing, and provide an infinite variety of
services to preserve and protect community safety.”
Id. at 784–85. At its core, the community caretaking
doctrine is designed to give police elbow room to take
appropriate action when unforeseen circumstances
present some transient hazard that requires
immediate attention. See id. at 787. Understanding
the core purpose of the doctrine leads inexorably to the
conclusion that it should not be limited to the motor
vehicle context. Threats to individual and community
safety are not confined to the highways. Given the
doctrine’s core purpose, its gradual expansion since
Cady, and the practical realities of policing, we think
it plain that the community caretaking doctrine may,
under the right circumstances, have purchase outside
the motor vehicle context. We so hold.
This holding does not end our odyssey. It remains
for us to determine whether the community
caretaking doctrine extends to the types of police
activity that the defendants ask us to place under its

17a
umbrella. First, we must consider the involuntary
seizure of an individual whom officers have an
objectively reasonable basis for believing is suicidal or
otherwise poses an imminent risk of harm to himself
or others. Second, we must consider the temporary
seizure of firearms and associated paraphernalia that
police officers have an objectively reasonable basis for
thinking such an individual may use in the immediate
future to harm himself or others. Third, we must
consider the appropriateness of a warrantless entry
into an individual’s home when that entry is tailored
to the seizure of firearms in furtherance of police
officers’ community caretaking responsibilities.
For several reasons, we conclude that these police
activities are a natural fit for the community
caretaking exception.
To begin, the interests
animating these activities are distinct from “the
normal work of criminal investigation,” placing them
squarely within what we have called “the heartland of
the community caretaking exception.” Matalon, 806
F.3d at 634–35 (explaining that courts must “look at
the function performed by a police officer” when
examining whether activity falls within heartland
(emphasis in original) (quoting Hunsberger v. Wood,
570 F.3d 546, 554 (4th Cir. 2009))). When police
respond to individuals who present an imminent
threat to themselves or others, they do so to “aid those
in distress” and “preserve and protect community
safety.” Rodriguez-Morales, 929 F.2d at 784–85.
These are paradigmatic examples of motivating forces
for community caretaking activity. See Opperman,
428 U.S. at 374 (observing that “sole justification” for

18a
search in Cady was “the caretaking function of the
local police to protect the community’s safety”).
We add, moreover, that any assessment of the
reasonableness of caretaking functions requires the
construction of a balance between the need for the
caretaking activity and the affected individual’s
interest in freedom from government intrusions. See
United States v. King, 990 F.2d 1552, 1560 (10th Cir.
1993); Rodriguez-Morales, 929 F.2d at 786. This
balancing test must, of course, be performed anew in
each individual case. The community’s strong interest
in ensuring a swift response to individuals who are
mentally ill and imminently dangerous will often
weigh heavily in the balance.
After all, the
consequences of a delayed response to such an
individual “may be extremely serious, sometimes
including death or bodily injury.” McCabe v. Life-Line
Ambulance Serv., Inc., 77 F.3d 540, 547 (1st Cir.
1996). Although an individual has robust interests in
preserving his bodily autonomy, the sanctity of his
home, and his right to keep firearms within the home
for self-protection, these interests will sometimes
have to yield to the public’s powerful interest “in
ensuring that ‘dangerous’ mentally ill persons [do] not
harm themselves or others.” Id.
Last—but surely not least—encounters with
individuals whom police reasonably believe to be
experiencing acute mental health crises frequently
confront police with precisely the sort of damned-ifyou-do, damned-if-you-don’t conundrum that the
community caretaking doctrine can help to alleviate.
If police officers are left twisting in the wind when

19a
they take decisive action to assist such individuals
and prevent the dreadful consequences that might
otherwise ensue, they would be fair game for claims of
overreach and unwarranted intrusion. Conversely, if
the lack of constitutional protection leads police
officers simply to turn a blind eye to such situations
and tragedy strikes, the officers would be fair game for
interminable second-guessing. Cf. Mora v. City of
Gaithersburg, 519 F.3d 216, 228 (4th Cir. 2008)
(observing that if police had “not taken the [plaintiff’s]
weapons, and had [the plaintiff] used those weapons
to cause harm, the officers would have been subject to
endless second-guessing and doubtless litigation”).
The short of it is that the classes of police activities
challenged in this case fall comfortably within the
ambit of the community caretaking exception to the
warrant requirement. But that exception is not a free
pass, allowing police officers to do what they want
when they want. Nor does it give police carte blanche
to undertake any action bearing some relation, no
matter how tenuous, to preserving individual or
public safety. Put bluntly, activities carried out under
the community caretaking banner must conform to
certain limitations. And the need to patrol vigilantly
the boundaries of these limitations is especially
pronounced in cases involving warrantless entries
into the home. See Matalon, 806 F.3d at 633 (“It is
common ground that a man’s home is his castle and,
as such, the home is shielded by the highest level of
Fourth Amendment protection.”). We turn next to
these guardrails.

20a
As a starting point, police officers must have “solid,
non-investigatory reasons” for engaging in community
caretaking activities. Rodriguez-Morales, 929 F.2d at
787. They may not use the doctrine as “a mere
subterfuge for investigation.” Id. Leave to undertake
caretaking activities must be based on “specific
articulable facts,” King, 990 F.2d at 1560, sufficient to
establish that an officer’s decision to act in a
caretaking capacity was “justified on objective
grounds,” Rodriguez-Morales, 929 F.2d at 787. Then,
too, those actions must draw their essence either from
state law or from sound police procedure. See id. at
785.
Contrary to the plaintiff’s importunings, “sound
police procedure” need not involve the application of
either established protocols or fixed criteria. We have
defined sound police procedure broadly and in
practical terms; it encompasses police officers’
“reasonable choices” among available options. Id. at
787; see Coccia, 446 F.3d at 239 (explaining, in vehicle
impoundment context, that “it is inappropriate for the
existence of (and adherence to) standard procedures
to be the sine qua non of” reasonable community
caretaking functions). There is, moreover, “no
requirement that officers must select the least
intrusive means of fulfilling community caretaking
responsibilities.” Lockhart-Bembery, 498 F.3d at 76.
Even so, community caretaking tasks must be
narrowly circumscribed, both in scope and in
duration, to match what is reasonably required to
perform community caretaking functions.
See
Opperman, 428 U.S. at 374–75; Smith, 820 F.3d at

21a
362. The acid test in most cases will be whether
decisions made and methods employed in pursuance
of the community caretaking function are “within the
realm of reason.” Lockhart-Bembery, 498 F.3d at 75
(quoting Rodriguez-Morales, 929 F.2d at 786).
Before endeavoring to apply these principles, we
offer two final caveats. First, the terms “imminent”
and “immediate,” as used throughout this opinion, are
not imbued with any definite temporal dimensions.
Nor is our use of these terms meant to suggest that
the degree of immediacy typically required under the
exigent circumstances and emergency aid exceptions
is always required in the community caretaking
context. See Sutterfield, 751 F.3d at 561 (noting that
“[t]he community caretaking doctrine has a more
expansive temporal reach” than the emergency aid
exception). Because the summary judgment record
shows that a reasonable officer could have found that
an immediate threat of harm was posed by the
plaintiff and his access to firearms, see infra Parts
II(A)(3)–(4), we need not decide whether the
community
caretaking
exception
may
ever
countenance a police intrusion into the home or a
seizure (whether of a person or of property) in
response to some less immediate danger.
Second, the parties debate, albeit in a desultory
manner, whether the officers had probable cause to
seize the plaintiff. We have used such a metric in
considering seizures of the person pursuant to civil
protection statutes, see, e.g., Alfano, 847 F.3d at 77,
but generally have scrutinized community caretaking
activities for reasonableness, see, e.g., Lockhart-

22a
Bembery, 498 F.3d at 75. Here, the police intrusions
at issue—specifically, the seizures of an individual for
transport to the hospital for a psychiatric evaluation
and of firearms within a dwelling—are of a greater
magnitude than classic community caretaking
functions like vehicle impoundment.
In such
circumstances, it may be that some standard more
exacting than reasonableness must be satisfied to
justify police officers’ conduct. Once again, though, we
need not definitively answer this question: the record
makes manifest that an objectively reasonable officer
would have acted both within the realm of reason and
with probable cause by responding as the officers did
in this instance. 6
For ease in exposition, we
nonetheless use variations of the term “reasonable”
throughout this opinion to describe the defendant
officers’ conduct.
Having laid the foundation, we move from the
general to the specific. The key questions, of course,
relate to whether the defendants acted within the
margins of the Fourth Amendment both when they
seized the plaintiff and when they seized his firearms.
3. The Seizure of the Plaintiff. As said, the
plaintiff alleges that he was unlawfully seized by the
6

Withal, we think it bears mention that similar police
activities carried out under the auspices of some analogous
exceptions to the warrant requirement are traditionally not
evaluated under a probable cause framework. See, e.g., Hill, 884
F.3d at 23 (holding that police need only show objectively
reasonable basis to believe “person inside the home is [in] need of
immediate aid” to justify warrantless entry under emergency aid
exception).

23a
defendant officers when they sent him to the hospital
for a psychiatric evaluation. The officers lean on the
community caretaking exception as their justification
for this seizure.
Our review of the record makes manifest that no
rational factfinder could deem unreasonable the
officers’ conclusion that the plaintiff presented an
imminent risk of harming himself or others. Viewed
objectively, the facts available to the officers at the
time of the seizure place this conclusion well within
the realm of reason. The officers knew that the
plaintiff had fetched a firearm during an argument
and implored his wife to “shoot [him] now and get it
over with.” They also knew that his behavior had so
dismayed his wife that she spent the night at a hotel
and requested a wellness check on her husband the
next morning because she feared that he might have
committed suicide. No rational finder of fact could
determine that an officer confronted with this
scenario would be acting unreasonably by refusing to
shut his eyes to the plaintiff’s obvious risk of selfharm.
We conclude, as well, that the officers acted in
conformity with sound police procedure by seizing the
plaintiff and sending him to the hospital for a
psychiatric evaluation. CPD General Order 320.70,
which was in effect in August of 2015, authorized
officers to send an individual who is “imminently
dangerous” to himself or others to a hospital by means
of emergency transportation for an involuntary
psychiatric evaluation. The plaintiff counters that
General Order 320.80 (which requires police to

24a
terminate civil “keeping the peace” activities if met
with resistance) is a trump card, rendering the
officers’ conduct impermissible in light of the
plaintiff’s alleged resistance to visiting the hospital.
We disagree. General Order 320.70 plainly governs
factual scenarios where, as here, CPD officers
encounter individuals whom they reasonably perceive
are imminently dangerous and in need of an
emergency psychiatric evaluation.
Even if the officers’ actions were not tethered to an
established procedure, their decision to remit the
plaintiff to the hospital would still have fallen within
the universe of reasonable choices available to them
at the time. 7 Faced with the unenviable choice
between sending the plaintiff to the hospital and
leaving him (agitated, ostensibly suicidal, and with
two handguns at his fingertips), the officers
reasonably chose to be proactive and to take
preventive action. Because community caretaking
functions need only be warranted under either state
7

Relying chiefly on the opinions of a retained expert, the
plaintiff faults the officers for not consulting a list of warning
signs that CPD officers are trained to recognize when they
encounter potentially suicidal individuals. He likewise faults the
officers for failing to pose a series of questions that CPD officers
are trained to ask such individuals. In this case, though, the
plaintiff arguably exhibited a significant number of warning
signs and, beyond denying that he was suicidal, steadfastly
refused to discuss his mental health. And in any event, the
outcome of our inquiry into whether the officers followed sound
police procedure does not hinge on their application of fixed
criteria. See Coccia, 446 F.3d at 239; Rodriguez-Morales, 929
F.2d at 787.

25a
law or sound police procedure (as we have broadly
defined that term), see Rodriguez-Morales, 929 F.2d at
785, 787, and the seizure here was fully justified by
the latter, the plaintiff’s remonstrance that no positive
state law or existing CPD order had explicitly
extended the community caretaking exception to this
factual scenario is without force. To cinch the matter,
the methods employed by the officers to effectuate the
seizure were within the realm of reason.
The
undisputed facts reveal that the officers facilitated the
plaintiff’s transport to the hospital by ambulance in a
calm, professional manner and without any physical
coercion or restraints.
In an initial effort to blunt the force of this
reasoning, the plaintiff first suggests that his
production of the unloaded firearm and his
exhortation to “shoot [him] now” were mere “dramatic
gesture[s]” that did not bespeak any suicidal ideation.
Even if the plaintiff intended only a hyperbolic
flourish, we cannot say that it was outside the realm
of reason for the officers to discern a serious risk of
imminent self-harm, given the surrounding factual
context: a man had recklessly thrown a firearm, made
a desperate exclamation suggesting (at best) a fraught
frame of mind or (at worst) a propensity for self-harm,
and so unnerved his wife that she hid the magazine
for the gun from him, stayed overnight at a hotel, and
worried whether her husband might have committed
suicide the next morning. Standard police equipment
does not include crystal balls. Here, we think it
apparent that the officers were amply warranted on

26a
objective grounds in concluding that the flashing red
lights signaled imminent danger. See id. at 787.
Nor do we accept the plaintiff’s argument that the
passage of approximately twelve hours between the
plaintiff’s outburst and his encounter with the officers
necessarily diminished the imminence of the potential
threat. See Ahern v. O’Donnell, 109 F.3d 809, 818 (1st
Cir. 1997) (per curiam) (rejecting argument that
officers “could not reasonably have viewed [plaintiff]
as dangerous because he did not engage in dangerous
behavior between” troubling telephone call and
seizure approximately thirty-seven hours later). It is,
of course, true that “emergencies do not last forever.”
Sutterfield, 751 F.3d at 562. On these facts, though,
it seems to us—as it could have appeared to
objectively reasonable officers—that the mere passage
of a short period of time, without more, was not
enough to allay the valid fear that the plaintiff might
do harm to himself or others, particularly when the
plaintiff’s wife continued to express urgent concerns
about the plaintiff’s well-being the morning after his
disturbing interaction with her. See id.
We find similarly unconvincing the plaintiff’s
argument that no reasonable officer could have
determined that the plaintiff posed an imminent
threat to himself or to others because he appeared
calm and denied suicidal intentions. We do not
gainsay that either an individual’s demeanor or his
self-assessment of his mental health (or both, in
combination) might under some circumstances render
unreasonable any conclusion that the individual
posed a danger to himself or others. But nothing in

27a
the record before us suggests that the plaintiff’s
relatively calm demeanor and conclusory assurances
that he was not suicidal significantly reduced the
likelihood that he might engage in self-harm. See id.
at 563; Ahern, 109 F.3d at 818. After all, suicidal
individuals are not apt to be the best judges of their
own mental health. Common sense teaches that such
individuals may deliberately conceal or downplay
their self-destructive impulses, particularly when
speaking with the police. See Rudolph v. Babinec, 939
F.3d 742, 747 (6th Cir. 2019) (per curiam). So, too, the
plaintiff’s reliance on the fact that he was neither
admitted to the hospital nor deemed suicidal by
medical personnel is mislaid. 8 The lawfulness of the
8

We likewise discount the plaintiff’s reliance on the opinion of
his retained expert, see supra note 7, who concluded that the
plaintiff’s words and actions could not “possibly be construed as
indicating that he was at imminent risk of suicide.” In
formulating this opinion, the expert cited only the plaintiff’s
assessment of his own behavior, offered during an interview held
some three years after the events that gave rise to this litigation.
The plaintiff’s subjective, post hoc rationalizations are irrelevant
to whether the officers made objectively reasonable
determinations based on the facts available to them. See Ahern,
109 F.3d at 817. Moreover, it is unclear whether the expert, when
rendering this opinion, viewed the evidence from the perspective
of an objectively reasonable officer rather than, as his report
seemed to indicate, from the vantage point of a trained
psychologist with “more than 47 years [of experience] as a
Suicidologist.” That an expert psychologist might have reached
a different conclusion about the plaintiff’s condition than a police
officer without such training does not render the officers’
determination objectively unreasonable. Cf. Sutterfield, 751 F.3d
at 562 (noting that “[o]nly a medical professional could make”
ultimate judgments about “risk that [plaintiff] might harm

28a
defendants’ actions must be measured by the facts in
the officers’ possession at the time of the seizure, not
by whether the conclusions that they drew from those
facts were later substantiated. See United States v.
Huffman, 461 F.3d 777, 785 (6th Cir. 2006); Ahern,
109 F.3d at 817–18; cf. United States v. Coombs, 857
F.3d 439, 446 (1st Cir. 2017) (admonishing that
“[h]indsight is always 20/20”). In this case, the facts
available to the officers at the time of the alleged
seizure warranted their conclusion that the plaintiff
posed a serious and imminent risk of harming himself
or others.
In an attempt to find a pearl in an apparently
empty oyster, the plaintiff contends that if the officers
wished to send him to the hospital to undergo a
psychiatric evaluation, the RIMHL required them
first to secure a judicial order committing him to the
hospital, obtain a physician’s application for
emergency certification, or file a written application
for emergency certification themselves.
This
contention is futile.
To begin, police officers cannot file petitions for civil
court certification. See R.I. Gen. Laws § 40.1-5-8(a)
(2006) (amended 2018).
Here, moreover, the
defendant officers could not, given the factual
circumstances at hand, have filed an application for
the plaintiff’s emergency certification. In August of
2015, the RIMHL—since amended—allowed police
officers to apply for the emergency certification of an
herself”). Consequently, the expert’s opinion does not create a
genuine issue of material fact.

29a
individual “whose continued unsupervised presence in
the community would create an imminent likelihood
of serious harm by reason of mental disability” only if
“no physician [was] available” to conduct an initial
examination. Id. § 40.1-5-7(a)(1) (2006) (amended
2017). An objectively reasonable officer would have
understood (as the defendant officers apparently did)
that a physician competent to perform a preliminary
assessment of the plaintiff’s mental health would be
readily available at the hospital. Consequently, the
RIMHL did not permit the defendant officers to file an
application for emergency certification themselves.
At the time of the plaintiff’s seizure, the RIMHL
neither explicitly authorized nor expressly forbade
police officers from transporting individuals whom
they reasonably perceived as imminently suicidal to
the hospital and causing them to undergo a
preliminary psychiatric evaluation by a physician who
could make an independent judgment about whether
to file an application for emergency certification. By
contrast, General Order 320.70 gave CPD officers the
authority to transport such individuals to the hospital
and ensure that they were evaluated. Importantly,
the RIMHL did not purport to preclude such police
activity in pursuance of internal policies and
procedures. The plaintiff offers no reason as to why
we should not read the RIMHL in harmony with
General Order 320.70. Cf. Rathbun v. Autozone, Inc.,
361 F.3d 62, 68 (1st Cir. 2004) (explaining that under
“in pari materia” canon of construction, legal
provisions that “relate to the same subject matter
should be considered together so that they will

30a
harmonize with each other and be consistent with
their general objective scope” (quoting State v.
Ahmadjian, 438 A.2d 1070, 1081 (R.I. 1981))). Such a
harmonious reading conduces to the conclusion that
the defendant officers’ seizure of the plaintiff did not
violate state law.
To say more about the seizure of the plaintiff’s
person would be supererogatory. We conclude that no
rational factfinder could determine that the defendant
officers strayed beyond the realm of reason by
deeming the plaintiff at risk of imminently harming
himself or others. Consequently, the officers’ seizure
of the plaintiff was a reasonable exercise of their
community caretaking responsibilities. Thus, that
seizure did not offend the Fourth Amendment.
4. The Seizure of the Firearms. The next hill we
must climb relates to the defendant officers’
warrantless entry into the plaintiff’s home and their
seizure of his handguns.
Seizures of personal
property generally require a warrant or some
recognized exception to the warrant requirement. See
United States v. Sanchez, 612 F.3d 1, 4 (1st Cir. 2010).
The same benchmark obtains, with particular force,
for entries into the home. See Payton v. New York, 445
U.S. 573, 589–90 (1980); MacDonald, 745 F.3d at 12.
Once again, the defendant officers seek to cloak their
conduct in the raiment of the community caretaking
function.
Notwithstanding our two-pronged assumption that
the plaintiff remained seized within the meaning of
the Fourth Amendment during his time at the

31a
hospital and that his psychiatric evaluation was
involuntary, our assessment of the seizure of his
firearms does not turn on what actually happened at
the hospital. Instead, this assessment centers on how
an objectively reasonable officer remaining at the
residence after the plaintiff’s departure could have
appraised the danger posed by the handguns in the
plaintiff’s home. We conclude that the officers could
reasonably have believed, based on the facts known to
them at the time, that leaving the guns in the
plaintiff’s home, accessible to him, posed a serious
threat of immediate harm. To begin, the plaintiff
freely admitted to throwing one of the firearms onto a
table and making a statement that a reasonable
officer could have construed as a harbinger of selfharm. What is more, this episode so concerned the
plaintiff’s wife that she felt compelled to hide the
magazine containing the bullets for that gun and then
to leave the dwelling to stay overnight at a hotel. To
cap the matter, the officers knew that the plaintiff
might soon return to a contentious domestic
environment, that he was “sick of the arguments” with
his wife, and that he was upset that she had involved
the police. These facts could have led an objectively
reasonable officer to grow concerned that, despite
Kim’s assurances that she did not fear for her own
safety, she too might be at near-term risk.
The plaintiff counters that he already had been
removed from the scene at the time of the seizure.
That is true as far as it goes, but it does not take the
plaintiff very far.
From the perspective of an
objectively reasonable officer, the plaintiff’s departure

32a
had not necessarily dispelled the threat of harm. 9
There is no evidence that the officers had any inkling
when the plaintiff would return or what his mental
state might be upon his return. And since the officers
did not accompany the plaintiff to the hospital, they
had no way of knowing precisely what information
would be imparted to healthcare providers about the
plaintiff’s circumstances. Similarly, they had no way
of knowing whether emergency services personnel
would monitor the plaintiff to ensure that he was
evaluated, let alone whether an emergency
certification would ensue. And even though the
plaintiff had assented to go to the hospital for an
evaluation, his initial reticence and refusal to answer
certain questions about his mental health could have
given an objectively reasonable officer pause about
whether he would in fact submit to an evaluation.
Such doubts would have been typical for CPD officers
faced with this sort of scenario: Captain Henry (the
officer who approved the seizure of the plaintiff’s
firearms) testified that although CPD officers can
9

The plaintiff calls our attention to the defendants’ apparent
concession (during oral argument on the summary judgment
motions in the district court) that neither the exigent
circumstances exception nor the emergency aid exception could
have justified the seizure of the plaintiff’s firearms after he had
been removed from the scene. Because the defendants have not
invoked either exception as a justification for the seizure, it would
serve no useful purpose for us to speculate about the relevance of
any such concession. In all events, the defendants have
consistently asserted, both here and in the court below, that the
threat of peril did not evaporate once the plaintiff was removed
from the scene.

33a
forcibly transport individuals in need of emergency
psychiatric evaluations to the hospital, officers cannot
“force [such individuals] to participate in anything”
and would not try to do so.
On this record, an objectively reasonable officer
remaining at the residence after the plaintiff’s
departure could have perceived a real possibility that
the plaintiff might refuse an evaluation and shortly
return home in the same troubled mental state. 10
Such uncertainty, we think, could have led a
reasonable officer to continue to regard the danger of
leaving firearms in the plaintiff’s home as immediate
and, accordingly, to err on the side of caution. See
Rodriguez, 930 F.3d at 1140 (observing that
“reasonable officer would have been deeply concerned
by the prospect” that individual who threatened
10

At the time of the plaintiff’s seizure, an application for
emergency certification could be filed for an individual who
refused to consent to an examination if the applicant’s
observations of the individual demonstrated that “emergency
certification [was] necessary.” R.I. Gen. Laws § 40.1-5-7(a)(1)
(2006) (amended 2017). Nothing in the RIMHL indicated,
however, that an individual who refused to consent to an
evaluation could be physically restrained between the moment of
their refusal and the execution of an application for emergency
certification (which could take place up to five days after the
applicant last observed the individual, see id. § 40.1-5-7(b)).
Accordingly, if the plaintiff had refused to submit to an
evaluation and a physician had nonetheless determined that an
application for certification should be filed, it remained a distinct
possibility that the plaintiff could simply have left the hospital
and returned home while such an application was being
prepared.

34a
shooting “might have had access to a firearm in the
near future,” even though individual had been taken
to hospital); Mora, 519 F.3d at 228 (rejecting
argument that “emergency vanished” after appellant
left for hospital, partially due to lack of certainty
about when appellant would return and what his state
of mind would be at that time).
One rejoinder to this conclusion (albeit a rejoinder
not advanced by the plaintiff) might be that the
defendant officers should have accompanied the
plaintiff to the hospital to see how events unfolded
before taking action with respect to his firearms.
Although that is a reasonable course of action that
could have been pursued, we do not require police
officers to choose the least intrusive means of fulfilling
their community caretaking responsibilities. See
Lockhart-Bembery, 498 F.3d at 76. Nor is it at all
clear that accompanying the plaintiff to the hospital
and monitoring his interactions with medical staff
would have been less intrusive than a circumscribed
entry into the plaintiff’s home. Because the officers’
decision to seize the plaintiff’s handguns for
temporary safekeeping was within the realm of
reason, it does not matter that “alternative reasonable
options were also available.” Id.; see RodriguezMorales, 929 F.2d at 786 (observing that “critical
question” in vehicle impoundment case was not
whether officers “could have effected an impoundment
more solicitously, but whether the decision to
impound and the method chosen for implementing
that decision were, under all the circumstances,
within the realm of reason”).

35a
We are likewise persuaded that the defendants’
actions in entering the plaintiff’s home and seizing his
firearms were consistent with sound police procedure.
The police play a vital role as guardians of the public
weal. They must, therefore, be granted some measure
of discretion when taking plausible steps to protect
public safety, particularly when human life may be at
stake and the margin for error is slight.
See
Rodriguez-Morales, 929 F.2d at 786–87 (explaining
that the “search for equipoise” in community
caretaking cases “almost always involves the exercise
of discretion” (quoting Lopez v. Aran, 844 F.2d 898,
905 (1st Cir. 1988))). As the Seventh Circuit cogently
reasoned in an analogous case, “[o]ne need only
imagine the public outcry . . . had the police left the
gun[s]” in place and the plaintiff “returned home and
then used the gun[s]” to inflict harm. Sutterfield, 751
F.3d at 570. Here, the officers’ decision to confiscate
the firearms was a reasonable choice from among the
available alternatives. See Rodriguez, 930 F.3d at
1139–40 (holding that police had “substantial public
safety interest” in preventing access to guns when
mentally ill individual had threatened violence);
United States v. Harris, 747 F.3d 1013, 1018–19 (8th
Cir. 2014) (concluding that officers were allowed to
seize firearm when failure to do so could have resulted
in “[a]ny number of dangerous, or even deadly,
outcomes”); Mora, 519 F.3d at 227 (deeming “public
safety rationale” a “sound basis” for seizing firearms
of individual who had threatened suicide and
shooting).

36a
To close the circle, the record establishes that the
methods employed by the police to effectuate the
seizure of the firearms were reasonable. The officers
did not ransack the plaintiff’s home, nor did they
engage in a frenzied top-to-bottom search for
potentially dangerous objects. Instead—relying on
Kim’s directions—they tailored their movements to
locate only the two handguns bearing a close factual
nexus to the foreseeable harm (one of which the
plaintiff had admitted throwing the previous day and
the other of which had been specifically called to the
officers’ attention).
We add a coda. In upholding the defendants’
actions under the community caretaking doctrine, we
in no way trivialize the constitutional significance of
warrantless entries into a person’s residence,
disruption of the right of law-abiding citizens to keep
firearms in their homes, or involuntary seizures of
handguns. By the same token, though, we also remain
mindful that police officers have a difficult job—a job
that frequently must be carried out amidst the push
and pull of competing centrifugal and centripetal
forces. Police officers must sometimes make on-thespot judgments in harrowing and swiftly evolving
circumstances.
Such
considerations
argue
persuasively in favor of affording the police some
reasonable leeway in the performance of their
community caretaking responsibilities.
In the circumstances of this case, we think that no
rational factfinder could deem unreasonable either
the officers’ belief that the plaintiff posed an imminent
risk of harm to himself or others or their belief that

37a
reasonable prudence dictated seizing the handguns
and placing them beyond the plaintiff’s reach.
Consequently, the defendants’ actions fell under the
protective carapace of the community caretaking
exception and did not abridge the Fourth Amendment.
B.

The Remaining Claims.

Having tackled the plaintiff’s most substantial
assignments of error, we proceed to his other claims.
We first examine the plaintiff’s claims that the
defendant officers, in their individual capacities,
violated the Second Amendment by seizing his
firearms. Next, we assess the plaintiff’s municipal
liability claims. At that juncture, the lens of our
inquiry narrows to evaluate the plaintiff’s claims that
the defendants abridged the Rhode Island
Constitution. We conclude with an appraisal of the
two state statutory claims advanced by the plaintiff.
1. The Second Amendment Claims. The plaintiff
insists that the defendant officers violated the Second
Amendment by seizing the two handguns from his
home. He concedes, however, that the officers never
attempted to restrict his ability to purchase or possess
other firearms. The district court rejected this claim,
ruling that “the Second Amendment is not implicated
when the police reasonably seize a gun under their
well-established duties as community caretakers” and
that “the Second Amendment does not protect an
individual’s right to possess a particular gun.”
Caniglia, 396 F. Supp. 3d at 237.
The Second Amendment provides that “[a] wellregulated Militia, being necessary to the security of a

38a
free State, the right of the people to keep and bear
Arms, shall not be infringed.” U.S. Const. amend. II.
The Supreme Court has determined that the Second
Amendment protects an individual’s right to keep and
bear arms even outside the context of service in a
militia. See District of Columbia v. Heller, 554 U.S.
570, 592 (2008); see also McDonald v. City of Chicago,
561 U.S. 742, 791 (2010) (applying Second
Amendment
to
states
through
Fourteenth
Amendment). Although the Heller Court did not
venture to delineate the complete dimensions of the
Second Amendment right, it made clear that the
Second Amendment does not guarantee an unlimited
right to “keep and carry any weapon whatsoever in
any manner whatsoever and for whatever purpose.”
554 U.S. at 626.
Our precedent teaches that the core of the Second
Amendment right is confined to self-defense in the
home by law-abiding citizens. See Worman v. Healey,
922 F.3d 26, 36 (1st Cir. 2019), petition for cert. filed,
No. 19-404 (U.S. Sept. 25, 2019); Gould v. Morgan, 907
F.3d 659, 671 (1st Cir. 2018), petition for cert. filed,
No. 18-1272 (U.S. Apr. 4, 2019). We have not yet had
occasion to address whether the seizure of specific
firearms from the home in pursuance of a legitimate
police function infringes on this core right when, as in
this case, a gun owner has not been barred from
keeping or acquiring other firearms.
There are few guideposts bearing on the resolution
of this issue. The appellate courts that have grappled
with the issue have either skirted it, see Sutterfield,
751 F.3d at 571–72, or have held that the deprivation

39a
of specific firearms does not abridge the Second
Amendment, see Rodgers v. Knight, 781 F.3d 932,
941–42 (8th Cir. 2015). When all is said and done, we
need not conduct an archeological dig into this
uncertain terrain. Regardless of whether the seizure
of particular firearms can ever infringe the Second
Amendment right—a matter on which we take no
view—it was by no means clearly established in
August of 2015 that police officers seizing particular
firearms in pursuance of their community caretaking
functions would, by doing so, trespass on the Second
Amendment. Here, the plaintiff has wholly failed to
identify either binding precedent or a chorus of
persuasive authority “sufficient to send a clear signal”
to reasonable officers, Alfano, 847 F.3d at 75, that
seizures of individual firearms pursuant to the
community caretaking exception fell outside
constitutional bounds.
The doctrine of qualified immunity is by now
familiar. We previously set forth the parameters of
that doctrine. See supra note 3. In general terms, the
doctrine is designed to shield government officials
from suit when no “red flags [were] flying” at the time
of the challenged action—red flags sufficient to alert
reasonable officials that their conduct was unlawful.
MacDonald, 745 F.3d at 15. Because this is such a
case, the defendant officers in their individual
capacities are entitled to qualified immunity with
respect to the plaintiff’s Second Amendment claims.
We therefore hold that the district court did not err in
granting them summary judgment on those claims.

40a
2. The Municipal Liability Claims. This brings
us to the plaintiff’s section 1983 claims against the
City and the defendants in their official capacities.
See Nereida-Gonzalez v. Tirado-Delgado, 990 F.2d
701, 705 (1st Cir. 1993) (“An official capacity suit is,
in reality, a suit against the governmental entity, not
against the governmental actor.”). The plaintiff
submits that the City maintains “an ongoing practice
of seizing people and requiring them to have
psychological evaluations and seizing their firearms
without court orders or exigent circumstances.” See
Monell v. Dep’t of Soc. Servs., 436 U.S. 658, 690–91
(1978) (holding that local governments may be sued
under section 1983 pursuant to practices that are “so
permanent and well settled as to constitute a ‘custom
or usage’ with the force of law” (quoting Adickes v.
S.H. Kress & Co., 398 U.S. 144, 167–68 (1970))). In
this instance, the plaintiff asserts that the challenged
practice resulted in a violation of his Fourth
Amendment rights.
The Monell Court made clear that municipalities
cannot “be held liable [under section 1983] unless
action pursuant to official municipal policy of some
nature caused a constitutional tort.” Id. at 691
(emphasis supplied); see Lund v. Henderson, 807 F.3d
6, 10 n.2 (1st Cir. 2015); Kennedy v. Town of Billerica,
617 F.3d 520, 531–32 (1st Cir. 2010). We already have
held that the officers’ conduct fell within the
encincture of the community caretaking function and,
thus, did not offend the Fourth Amendment. Given
this determination, it necessarily follows that the
plaintiff cannot prevail against the City on a theory of

41a
municipal liability grounded on a Fourth Amendment
species of constitutional tort.
This does not end the matter. It is not entirely clear
whether the plaintiff’s claims against the City, as
configured on appeal, encompass a Second
Amendment component. Relying on the plaintiff’s
allegations in the complaint, the district court framed
the plaintiff’s Second Amendment claims as alleging,
in relevant parts, that the City “deprived him of his
lawfully obtained and possessed weapons for no
reason” through a “set of customs, practices, and
policies.” Caniglia, 396 F. Supp. 3d at 236.
On appeal, though, the plaintiff does not appear to
assert that the City is liable for an underlying Second
Amendment violation. While he summarily adverts to
the City’s “unwritten practice of seizing firearms for
safekeeping” in portions of his brief concerned with
the alleged Fourth Amendment violations, he never
connects these cursory allusions to municipal liability
with his claim of an underlying Second Amendment
violation. Indeed, the portion of his reply brief dealing
with the City’s liability under section 1983 only
mentions the City’s purported violations of the Fourth
Amendment and the Rhode Island Constitution. More
problematic still, even though the record contains
evidence that might perhaps have been effectively
marshaled to illustrate a custom of seizing firearms
for safekeeping under conditions like those at hand
(including a General Order and testimony from the
police chief and various officers), the plaintiff’s efforts
to assemble and analyze that evidence are
unacceptably meager. The net result is that, even if

42a
we assume that the plaintiff intended to argue on
appeal that the City caused an infringement of his
Second Amendment right by way of a custom or policy,
that claim has been fatally underdeveloped.
We need not tarry. In this circuit, it is settled
beyond peradventure that a reviewing court is not
obliged to do a lawyer’s work for him by putting meat
on the bones of a skeletal argument. See United States
v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990). “[I]ssues
adverted to in a perfunctory manner, unaccompanied
by some effort at developed argumentation, are
deemed waived.”
Id.
Accordingly, we deem
abandoned any claim that the plaintiff suffered a
Second Amendment violation because of a policy or
practice attributable to the City.
3. The State Constitutional Claims. We come
now to the plaintiff’s claims that the seizure of both
his person and his handguns transgressed article 1,
section 6 of the Rhode Island Constitution and his
imbricated claim that the handgun seizure also
violated article 1, section 22. We address these claims
sequentially.
(a). Article 1, section 6 of the Rhode Island
Constitution guarantees “[t]he right of the people to
be secure in their persons, papers and possessions,
against unreasonable searches and seizures.” The
plaintiff contends that the officers’ conduct violated
this provision, which he asserts “provides stronger
protections against searches and seizures than the
Fourth Amendment.”
For several reasons, this
argument lacks force.

43a
With certain limited exceptions, not relevant here,
the Rhode Island Supreme Court construes article 1,
section 6 as coextensive with the Fourth Amendment.
See, e.g., State v. Morris, 92 A.3d 920, 930 (R.I. 2014);
Duquette v. Godbout, 471 A.2d 1359, 1361 (R.I. 1984).
This lockstep approach holds true both in cases
involving entries into dwellings under emergency
circumstances, see, e.g., Duquette, 471 A.2d at 1361–
62, and in cases concerning the seizure of individuals,
see, e.g., State v. Foster, 842 A.2d 1047, 1049–50, 1050
n.3 (R.I. 2004) (per curiam). With respect to the types
of police activity at issue here, we have no reason to
suspect that the Rhode Island Supreme Court would
afford more robust protection under article 1, section
6 than is available under the Fourth Amendment. See
State v. Andujar, 899 A.2d 1209, 1223–24, 1224 n.12
(R.I. 2006) (cautioning that decision to depart from
minimum Fourth Amendment protection “should be
made guardedly” (quoting State v. Werner, 615 A.2d
1010, 1014 (R.I. 1992))).
Moreover, although the state supreme court has not
explicitly extended the community caretaking
doctrine either to warrantless seizures of individuals
and property or to warrantless entries into dwellings,
it has articulated an expansive view of the doctrine.
For example, the court has described the doctrine as
one concerning “the many varied daily tasks” police
are called upon to perform, including “acting as a
domestic-relations counselor,” serving as a makeshift
midwife, and informing a “citizen of the loss of a loved
one.” State v. Cook, 440 A.2d 137, 139 (R.I. 1982); see

44a
State v. Roussell, 770 A.2d 858, 860–61 (R.I. 2001) (per
curiam).
To complete the picture, we think it noteworthy
that the Rhode Island Supreme Court has adopted an
“emergency doctrine” that bears some resemblance to
the community caretaking function.
See, e.g.,
Duquette, 471 A.2d at 1362 (deeming forcible entry
into apartment justified under Fourth Amendment
and article 1, section 6 because police had reason to
believe minor was in peril inside). An expansion of the
exigent circumstances exception, the emergency
doctrine permits warrantless police activity on private
premises (including entries into dwellings) when
officers “have a reasonable belief that [their]
assistance is required to avert a crisis” and the
motivation underlying the activity is “to preserve life
and property rather than to search for evidence to be
used in a criminal investigation.” Id.; see State v.
Goulet, 21 A.3d 302, 313–14 (R.I. 2011); State v.
Portes, 840 A.2d 1131, 1136–37 (R.I. 2004).
Given the Rhode Island Supreme Court’s expansive
conception of the community caretaking function, its
adoption of the “emergency doctrine,” and its
demonstrated propensity to construe article 1, section
6 as coterminous with the Fourth Amendment, we
discern no basis for believing that the state supreme
court would find that the officers’ conduct violated the
state constitution. Since the plaintiff has failed to
offer any convincing rationale as to why the
defendants’ seizures of his person and his firearms
would violate article 1, section 6 when those seizures
do not violate the Fourth Amendment, summary

45a
judgment for the defendants was appropriate on this
aspect of the plaintiff’s state constitutional claims.
(b). The plaintiff also contends that the seizure of
his firearms violated article 1, section 22 of the Rhode
Island Constitution. This provision memorializes the
principle that “[t]he right of the people to keep and
bear arms shall not be infringed.” In the plaintiff’s
view, article 1, section 22 guarantees him an absolute
right to keep arms in his home; and he asserts that
the defendants infringed this right by taking his
firearms without a warrant, court order, or exigent
circumstances. The district court rejected this claim,
see Caniglia, 396 F. Supp. 3d at 236–37, and so do we.
The plaintiff’s argument that article 1, section 22
guarantees an absolute right to keep guns in the home
appears to be wishful thinking. The argument hangs
by a single thread: a line in a footnote in Mosby v.
Devine, 851 A.2d 1031, 1043 n.7 (R.I. 2004). There,
the Rhode Island Supreme Court reviewed the RIFA’s
licensing framework for the carriage of pistols and
revolvers, see R.I. Gen. Laws § 11-47-18; Mosby, 851
A.2d at 1047. In a footnote refuting the dissent’s
“assertions about the law of self-defense in Rhode
Island,” the court stated, without citation to any
authority, that “one has an absolute right to keep
firearms in one’s home or place of business.” Mosby,
851 A.2d at 1043 n.7. This singular statement cannot
support the weight of the plaintiff’s argument that his
right to keep firearms in the home is unfettered.
To begin, the statement was not essential to the
court’s review of the licensing scheme before it, which

46a
principally implicated the right to carry certain types
of guns outside homes and businesses (not the right to
keep guns within the home). See id. at 1043 n.6
(deeming retention of guns in home “a situation far
removed from the issues facing us today”).
“[O]bservations relevant, but not essential, to the
determination of the legal questions” before a court
are paradigmatic examples of non-binding dicta.
Dedham Water Co. v. Cumberland Farms Dairy, Inc.,
972 F.2d 453, 459 (1st Cir. 1992).
Although courts often give weight to dictum that
appears “considered as opposed to casual,” id., we
cannot say that the sentence on which the plaintiff
relies qualifies as considered dictum. For one thing,
when viewed in the fullness of the surrounding text,
the sentence sends mixed signals about the scope of
the right to keep arms in the home under article 1,
section 22. After all, in the text that immediately
precedes the footnote in which the sentence at issue
appears, the Mosby court left no doubt that it would
not attempt to either “define the extent” of the rights
to keep and bear arms or “establish the limits” of
article 1, section 22. 851 A.2d at 1043. And for
another thing, the sentence is little more than a waif
in the wilderness, unaccompanied by citation of
authority or any further elucidation.
We need not dwell on this claim. Beyond his plaint
that article 1, section 22 guarantees an “absolute”
right to keep guns in his home, the plaintiff has not
adequately developed any other relevant argument.
As a result, any such argument—including any
contention that the Heller framework applies as a

47a
matter of state constitutional law under article 1,
section 22—has been waived. See Zannino, 895 F.2d
at 17.
4. The State Statutory Claims. Our final chore
is to consider the plaintiff’s two state statutory claims,
which seek damages for alleged violations of the
RIMHL and the RIFA, respectively. The linchpin of
both claims is yet another state statute: R.I. Gen.
Laws § 9-1-2. This statute permits individuals to
pursue claims for damages resulting from injuries
caused by the commission of a crime (even if
uncharged). See Kelly v. Marcantonio, 187 F.3d 192,
202 & n.8 (1st Cir. 1999).
(a). The plaintiff attempts to use section 9-1-2 as a
respirator to breathe life into his RIMHL claim. To
make the connection, he asserts that the defendants
committed a criminal violation of the RIMHL by
conspiring to have him admitted to the hospital. See
R.I. Gen. Laws § 40.1-5-38 (criminalizing conspiracy
to “improperly cause to be admitted or certified to any
facility” any person not covered by RIMHL). He
further asserts that by sending him to the hospital
without first securing a physician’s application for
emergency certification or a judicial order committing
him to the hospital, the defendants were, in effect,
conspiring to have him improperly admitted.
This claim consists of more cry than wool. As we
already have concluded, see supra Part II(A)(3), the
RIMHL—both when viewed in isolation and when
read in conjunction with CPD General Order 320.70—
did not forbid the police from transporting an

48a
individual to the hospital for an outpatient psychiatric
examination by a physician. In addition, the record is
devoid of any probative evidence that the defendants
conspired to have the plaintiff admitted to the
hospital. Even when construed in the light most
favorable to the plaintiff, see Avery, 661 F.3d at 691,
the record discloses no more than that the defendants
sought to have him transported to the hospital and
evaluated by medical professionals. There is simply
no evidence, either direct or circumstantial, sufficient
to support a finding that the defendants schemed to
have him hospitalized.
(b). The plaintiff’s RIFA claim fares no better. The
RIFA “regulate[s] the possession and use of an array
of weapons.” Mosby, 851 A.2d at 1045. The plaintiff
alleges that the RIFA makes certain violations of its
terms punishable by imprisonment, see R.I. Gen.
Laws § 11-47-26, and further alleges that the
defendants committed such a crime by seizing his
firearms “without just cause.” In support, the plaintiff
relies on a wholly inapposite admonition in a section
of the RIFA concerning the safe storage of firearms,
which instructs that the section should not be
construed “to provide authority to any state or local
agency to infringe upon the privacy of any family,
home or business except by lawful warrant.” Id. § 1147-60.1(a). Finally, the plaintiff alleges that he does
not fall into any of the categories of persons prohibited
from possessing firearms. See, e.g., id. § 11-47-6
(mental incompetents and drug addicts); id. § 11-47-7
(illegal aliens).

49a
These allegations do not carry the day. As we
already have held, see supra Part II(A)(4), the seizure
of the plaintiff’s firearms fell within the ambit of the
community caretaking exception to the warrant
requirement. The plaintiff has not identified any
provision of the RIFA that criminalizes the temporary
seizure of firearms pursuant to this exception. And
because this case does not involve a categorical ban on
the plaintiff’s possession of firearms, his plaint that he
cannot be totally foreclosed from possessing firearms
lacks relevance.
In sum, no reasonable factfinder could conclude, on
this record, that the defendants committed criminal
violations under either the RIMHL or the RIFA.
Thus, the court below did not err in entering summary
judgment for the defendants on the plaintiff’s state
statutory claims.
III. CONCLUSION
We need go no further. Police officers play an
important role as community caretakers. As this case
illustrates, they sometimes are confronted with
peculiar circumstances—circumstances that present
them with difficult choices. Here, the actions of the
defendant officers, though not letter perfect, did not
exceed the proper province of their community
caretaking responsibilities. The able district court
recognized as much and, for the reasons elucidated
above, its judgment is
Affirmed.

50a

APPENDIX B

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF RHODE ISLAND
EDWARD A.
CANIGLIA,
Plaintiff,
v.
ROBERT F. STRUM as
the Finance Director of
THE CITY OF
CRANSTON, THE CITY
OF CRANSTON, COL.
MICHAEL J.
VINQUIST in his
individual capacity
and in his official
capacity as Chief of the
CRANSTON POLICE
DEPARTMENT, CAPT.
RUSSELL HENRY, JR.,
in his individual
capacity and in his
official capacity as an
officer of the

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

C.A. No. 15-525JJM-LDA

51a
CRANSTON POLICE
DEPARTMENT,
MAJOR ROBERT
QUIRK, in his
individual capacity
and in his official
capacity as an officer
of the CRANSTON
POLICE
DEPARTMENT, SGT.
BRANDON BARTH, in
his individual capacity
and in his official
capacity as an officer
of the CRANSTON
POLICE
DEPARTMENT,
OFFICER JOHN
MASTRATI in his
individual capacity
and in his official
capacity as an officer
of the CRANSTON
POLICE
DEPARTMENT,
OFFICER WAYNE
RUSSELL in his
individual capacity
and as an officer of the
CRANSTON POLICE
DEPARTMENT,
OFFICER AUSTIN

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

52a
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
Defendants. )
)
)

SMITH in his
individual capacity
and in his official
capacity as an officer
of the CRANSTON
POLICE
DEPARTMENT, and
JOHN and JANE DOES
NOS 1–10, in their
individual capacities
and in their official
capacities as officers of
the CRANSTON
POLICE
DEPARTMENT,

MEMORANDUM AND ORDER
JOHN J. MCCONNELL, JR., United States District
Judge.
This case brings to the forefront the
constitutionality of police conduct when officers are
not acting in their law enforcement or investigatory
capacity, but aiding individuals out in the community.
Edward Caniglia’s wife called Cranston police for
assistance when she became concerned for her
husband’s health and safety. Police arrived at the
Caniglia’s home, and spoke to both Mr. and

53a
Mrs. Caniglia, and ultimately decided to send
Mr. Caniglia in a Cranston rescue for a well-being
check at Kent Hospital and to remove from the home
the guns that he legally possessed.
Mr. Caniglia filed this lawsuit and both he and the
City have filed cross-motions for summary judgment.
The City moves (ECF No. 45) on these counts: Count I
− Rhode Island Firearms Act; Count II − Second
Amendment/Article I, § 2 of the Rhode Island
Constitution; Count III − Fourth Amendment/
Article 1, § 6 of the Rhode Island Constitution;
Count V − Equal Protection; Count VI − Rhode Island
Mental Health Law; and Count VII − Conversion, and
claims for Declaratory and Injunctive Relief.
Mr. Caniglia has cross-moved (ECF No. 43) on Counts
III, VI, and VII and also on Count IV − Due Process,
and the City’s immunity and community caretaking
function defenses.
I. FACTS
On August 20, 2015, Mr. Caniglia and his wife had
an argument in their home in Cranston, Rhode Island.
ECF No. 55 at ¶ 1. Mrs. Caniglia asked her husband
what was wrong, and he responded by going into their
bedroom and returning with a gun; he threw it on the
table and said, “why don’t you just shoot me and get
me out of my misery.” Id. at ¶ 3. Mrs. Caniglia was
shocked by her husband’s behavior and threatened to
call 911. Id. at ¶¶ 5–6. Mr. Caniglia left the home. Id.
at ¶ 7. Mrs. Caniglia did not call 911. Id.
Mrs. Caniglia hid the gun between the mattress and
box spring in their bedroom. Id. at ¶ 8. She then

54a
realized that the gun had not been loaded because she
saw the magazine under the mattress. Id. at ¶ 9. She
moved the magazine to a drawer. Id. She hid the gun
and magazine because she was worried about her
husband’s state of mind.
Id. at ¶ 11.
When
Mr. Caniglia returned to their home, the couple
continued to fight, and Mrs. Caniglia left to spend the
night at a hotel. Id. at ¶ 14.
The next morning, Mrs. Caniglia tried to reach
Mr. Caniglia by phone, but he did not answer. ECF
No. 59 at ¶ 62. She became worried; she was afraid
that he would do something with the gun. Id. at ¶ 63.
She called Cranston police and asked them to make a
well call.1 ECF No. 55 at ¶ 16. She also asked for an
escort back to her home to check on Mr. Caniglia. ECF
No. 59 at ¶¶ 63–64. Officers John Mastrati, and
Austin Smith, and Sargent Brandon Barth arrived at
the hotel to speak with Mrs. Caniglia. ECF No. 55 at
¶ 19. She told them about the gun and what she did
with it and the magazine and about what Mr. Caniglia
said during their argument. Id. at ¶ 20. She told them
that she was concerned about her husband’s safety
and about what she would find when she got home; she
was worried about him committing suicide. Id. at
¶ 22.

1

Mrs. Caniglia testified that the police officers’ actions were
not what she expected. She wanted an escort home and she and
the police would knock on the door and when her husband
answered she would know he was okay, and “that we would talk,
and if things were fine, the officer would leave.” ECF No. 59 at
¶ 142.

55a
Officer Mastrati called Mr. Caniglia and asked to
speak with him at his home. ECF No. 59 at ¶ 66. He
told Mrs. Caniglia that her husband sounded fine, but
instructed her to follow them to the home, and to stay
in the car. Id. at ¶ 67. The officers spoke with Mr.
Caniglia on his back porch. Id. at ¶ 69. Mr. Caniglia
told Officer Mastrati that he brought the gun out
during an argument with his wife, that he was sick of
arguing with her, and that he told his wife “just shoot
me” because he “couldn’t take it anymore.” ECF
No. 55 at ¶¶ 26, 29. He was calm for the most part and
told Officer Mastrati that he would never commit
suicide. ECF No. 59 at ¶¶ 70–71. He seemed normal
during that encounter. Id. at ¶ 80. When officers
asked about his mental health, he told them it was
none of their business. Id. at ¶ 82.
Mrs. Caniglia arrived at the house and the officers
told her she could come in. ECF No. 55 at ¶ 31.
Mr. Caniglia asked her why she called the police and
she told him that she was worried about him. Id. at
¶ 33. Based on his conversations with Mrs. Caniglia,
Officer Mastrati was concerned about Mr. Caniglia’s
suicidal thoughts and that he was a danger to himself.
Id. at ¶¶ 36–37. Sargent Barth, who was in charge at
the scene, also considered Mr. Caniglia’s statement
that his wife should shoot him as a suicidal statement.
Id. at ¶ 38.
A rescue from Cranston Fire Department responded
to the scene. Richard Greene, a rescue lieutenant,
remembers little about the call but that police told him
that they recovered a gun from the scene and that
Mr. Caniglia asked his wife to shoot him. ECF No. 59

56a
at ¶ 103. Officer Greene told Mr. Caniglia that he was
taking him to Kent Hospital, and he went. Id. at
¶¶ 105–106.
Mr. Caniglia disputes the officers’
characterization that he went voluntarily because he
says he only went so that the officers would not take
his guns, but there is no evidence that Mr. Caniglia’s
submission to Cranston rescue was involuntary. ECF
No. 65 at ¶ 70. A physician and a nurse examined
him, and he was evaluated by a social worker. ECF
No. 59 at ¶ 121. The hospital discharged him the same
day. Id.
Sargent Barth made the decision to seize
Mr. Caniglia’s guns, 2 which Captain Henry approved
based on the assertion from the officers at the scene
who felt it was reasonable to do so based on
Mr. Caniglia’s state of mind. ECF No. 55 at ¶ 41; ECF
No. 59 at ¶ 87. Captain Henry was concerned that if
the guns remained in the home, Mr. Caniglia and
others could be in danger. ECF No. 55 at ¶ 42. After
Mr. Caniglia left the home, Mrs. Caniglia showed the
police where the guns and magazines were kept in the
bedroom and garage and the officers removed them
from the premises. Id. at ¶ 40. The parties dispute
the assertion that Mrs. Caniglia wanted the guns
removed, but it is undisputed that she pointed out

2 There is a dispute over what the police said to Mr. and
Mrs. Caniglia about seizing the guns—the Caniglia’s say that the
police told Mrs. Caniglia that her husband approved the seizure
and that if Mr. Caniglia went to the hospital for an evaluation,
they would not take the guns—but that dispute is not material
because ultimately, they took the guns. ECF No. 59 at ¶¶ 85–86.

57a
where the guns were and allowed the officers to
remove them. ECF No. 59 at ¶¶ 113–114.
A few days later, Mrs. Caniglia went to the
Cranston Police Department to retrieve her husband’s
guns. Id. at ¶ 122. After being informed that she
needed a copy of the police report and such a request
required a captain’s approval, she complied and
waited only to be told a few days later that her request
was denied, and she needed to get a court order. Id. at
¶¶ 122–123. A month later, Mr. Caniglia tried to get
his guns back from Cranston Police and they told him
that they were not going to release them. Id. at ¶ 125.
Mr. Caniglia’s attorney sent a letter to Chief Michael
Winquist requesting that the police return the guns to
no avail. Id. at ¶ 126. After filing this lawsuit, the
police gave Mr. Caniglia his guns back without a court
order. Id. at ¶¶ 133–134. Cranston Police did not
prevent Mr. Caniglia from buying or possessing any
new guns during this time period. ECF No. 55 at ¶ 46.
II.

STANDARD OF REVIEW

When ruling on a motion for summary judgment,
the court must look to the record and view all the facts
and inferences therefrom in the light most favorable to
the nonmoving party.
Continental Gas. Co. v.
Canadian Univ. Ins. Co., 924 F.2d 370, 373 (1st Cir.
1991). Once this is done, Rule 56(c) requires that
summary judgment be granted if there is no issue as
to any material fact and the moving party is entitled
to judgment as a matter of law. A material fact is one
affecting the lawsuit’s outcome.

58a
URI Cogeneration Partners, L.P. v. Board of
Governors for Higher Education, 915 F. Supp. 1267,
1279 (D.R.I. 1996).
The analysis required for cross-motions for
summary judgment is the same. Scottsdale Ins. Co. v.
Torres, 561 F.3d 74, 77 (1st Cir. 2009) (“The presence
of cross motions neither dilutes nor distorts this
standard of review”). In evaluating cross motions, the
court must determine whether either party is entitled
to judgment as a matter of law based on the
undisputed facts. Id.
III. ANALYSIS
The Court will begin by discussing the motions on
Mr. Caniglia’s federal claims. The Court will first
discuss Count III, which alleges that the City
unlawfully seized him and his guns in violation of the
Fourth Amendment, then Count II, which alleges that
the City violated Mr. Caniglia’s rights under the
Second Amendment by taking his guns, and then
Count IV which is a claim that the City violated due
process by failing to afford him any process for the
return of his guns. The Court will also address the
City’s asserted immunity and defenses. Finally, the
Court will turn to Mr. Caniglia’s claims under Rhode
Island common and statutory law, Counts I, VI, and
VII.
A.

Count III − Fourth Amendment

Both Mr. Caniglia and the City have moved for
summary judgment on his Fourth Amendment search
and seizure claim. In this claim, Mr. Caniglia alleges
that the City violated his Fourth Amendment right to

59a
be free from unreasonable searches and seizures by
taking his guns from his home without a warrant and
requiring him to submit to a mental health evaluation.
ECF No. 51 at ¶ 78. The City argues that it is entitled
to summary judgment because the officers’ behavior
was reasonable and consistent with its duty to protect
the public. The Court will first look at the relevant
Fourth Amendment law as well as the parameters of
the community caretaking function and qualified
immunity defenses that the City invokes.
1.

Fourth Amendment Law

Generally, Fourth Amendment jurisprudence talks
about searches and seizures in terms of arrests,
investigatory stops, or inventory searches. Morelli v.
Webster, 552 F.3d 12, 19 (1st Cir. 2009) (“A detention
at the hands of a police officer constitutes a seizure of
the detainee’s person and, thus, must be adequately
justified under the Fourth Amendment.”); United
States v. Coccia, 446 F.3d 233, 237–38 (1st Cir. 2006)
(“[A] law enforcement officer may only seize property
pursuant to a warrant based on probable cause
describing the place to be searched and the property to
be seized.”). But here, the City argues that its police
officers did not violate Mr. Caniglia’s constitutional
rights because they neither stopped nor arrested him
for law enforcement purposes, but detained him and
seized his guns in furtherance of their duties under the
community caretaking function. The City moves for
summary judgment on this defense and also on
qualified immunity. Mr. Caniglia argues that he is
entitled to summary judgment because it is
undisputed that his Fourth Amendment rights were

60a
violated and that this exception does not apply here
because it has only been sanctioned as an exception in
cases involving seizures and searches of vehicles, not
homes.
2.

Community Caretaking Function

“The Supreme Court recognized several decades ago
that ‘[l]ocal police officers, unlike federal officers,
frequently … engage in what, for want of a better
term, may be described as community caretaking
functions.”’ United States v. Gemma, 818 F.3d 23, 32
(1st Cir. 2016) (quoting Cady v. Dombrowski, 413 U.S.
433, 441 (1973)). “Apart from investigating crime,
police are ‘expected to aid those in distress, combat
actual hazards, prevent potential hazards from
materializing and provide an infinite variety of
services to preserve and protect public safety.”’ 3
3 Mr. Caniglia correctly points out that courts are split about
whether the community caretaking function standard the United
States Supreme Court first set forth in Cady in the vehicle
context also applies to searches of a home. See, e.g., Ray v. Twp.
of Warren, 626 F.3d 170, 177 (3d Cir. 2010); United States v. Bute,
43 F.3d 531, 535 (10th Cir. 1994); United States v. Erickson, 991
F.2d 529, 532 (9th Cir. 1993); United States v. Pichanv, 687 F.2d
204, 207–09 (7th Cir. 1982); Hawkins v. United States, 113 A.3d
216, 222 (D.C. 2015). The Fifth and Eighth Circuits have applied
the community caretaking function to warrantless searches of the
home, see United States v. York, 895 F.2d 1026, 1029 (5th Cir.
1990); United States v. Quezada, 448 F.3d 1005, 1007–08 (8th Cir.
2006). The Sixth Circuit has ruled both ways. Compare United
States v. Rohrig, 98 F.3d 1506, 1521–25 (6th Cir. 1996), with
Goodwin v. City of Painesville, 781 F.3d 314, 331 (6th Cir. 2015)
and United States v. Williams, 354 F.3d 497, 508–09 (6th Cir.
2003). The First Circuit has not had occasion to rule either way
on this question. MacDonald v. Town of Eastham, 745 F.3d 8,
13–14 (1st Cir. 2014). But given the court’s recognition of the
validity of police caretakers who “combat actual hazards, prevent
potential hazards from materializing and provide an infinite

61a
Gemma, 818 F.3d at 32 (quoting United States v.
Rodriguez-Morales, 929 F.2d 780, 784–85 (1st Cir.
1991)); Cady, 413 U.S. at 441 (The community
caretaking function is “totally divorced from the
detection, investigation, or acquisition of evidence
relating to the violation of a criminal statute.”).
“The community caretaking doctrine gives officers a
great deal of flexibility in how they carry out their
community caretaking function.” Lockhart-Bembery
v. Sauro, 498 F.3d 69, 75 (1st Cir. 2007) (citing
Rodriguez-Morales, 929 F.2d at 785). As long as police
are not investigating a crime, the Fourth Amendment
imperatives stay intact, “so long as the procedure
involved and its implementation are reasonable.” Id.
“Reasonableness does not depend on any particular
factor; the court must take into account the various
facts of the case at hand.” Lockhart-Bembery, 498 F.3d
at 75. Courts “must balance ‘its intrusion’ on [an
individual’s] substantial liberty interests in remaining
in [his] home, against the defendants ‘legitimate
governmental interests’ in minimizing the risk of
harm to [an individual], the family members, and
themselves” while performing their community
functions. Estate of Bennett v. Wainwnght, 548 F.3d
155, 172 (1st Cir. 2008) (citing Skinner v. Ry. Labor
Executives’ Ass’n, 489 U.S. 602, 619 (1989)).
variety of services to preserve and protect public safety[,]”
Gemma, 818 F.3d at 32 (quoting Rodriguez-Morales, 929 F.2d at
784–85), and the reality that these services could be required not
only in vehicles, but also in homes as well, it appears that the
community caretaking defense could be applied in a home,
depending on the facts of each individual case.

62a
The Court will first address whether there was a
seizure of a person. Mr. Caniglia argues that it was
unreasonable for the City to require him to go to the
hospital for a mental health check. But “not all
personal intercourse between policemen and citizens
involves ‘seizures’ of persons. Only when the officer,
by means of physical force or show of authority, has in
some way restrained the liberty of a citizen may we
conclude that a ‘seizure’ has occurred.” Terry v. Ohio,
392 U.S. 1, 19 n. 16 (1968); see also United States v.
Smith, 423 F.3d 25, 28 (1st Cir. 2005) (“In order to find
a seizure, ... we must be able to conclude that coercion,
not voluntary compliance, most accurately describes
the encounter.”); see also Lockhart-Bembery, 498 F.3d
at 75–76. The officer’s insistence, even if viewed as an
order, was not a seizure because Mr. Caniglia
voluntarily left in the Cranston rescue.
But even if sending him to the hospital was a
seizure, “a seizure does not violate the Fourth
Amendment unless it is unreasonable under the
circumstances.” Estate of Bennett, 548 F.3d at 172
(citing Skinner 489 U.S. at 619); Ahern v. O’Donnell,
109 F.3d 809, 816 (1st Cir. 1997). Here, the Court
finds that a jury could not find that any of the
individual officers’ conduct in sending Mr. Caniglia for
a mental health evaluation was unreasonable. Their
response to the Caniglia home was not part of a
criminal investigation and had no law enforcement
investigatory purpose. Officers responded to a call
from Mr. Caniglia’s wife who was concerned about his
mental and emotional well-being. Officer Mastrati
believed Mr. Caniglia was a danger to himself. ECF

63a
No. 55 at ¶ 37.
Sargent Barth considered Mr.
Caniglia’s statement to his wife to be a suicidal
statement. ECF No. 55 at ¶ 38. Looking at the record
as a whole, the officers had a legitimate safety concern
for the Caniglia’s at the time. Lockhart-Bembery, 498
F.3d at 76. There can be no dispute that sending
Mr. Caniglia to talk to a mental health professional is
a quintessential community caretaking function and
was reasonable under these circumstances.
Regarding the seizure of the guns, there is no
dispute that the officers knew the guns were legally
possessed and did not suspect that they would uncover
evidence of a crime so were acting solely in their roles
as community caretakers. But Mr. Caniglia argues
that the officers’ response in removing his guns was
not reasonable because they knew he was not suicidal,
Mrs. Caniglia knew he was not suicidal, the gun was
not loaded when he brought it out during the
argument, and most of the events that prompted their
well-being check happened the day before so there was
no emergency or reason remove the guns from the
home.
The City argues that the officers’ actions that day
were reasonable based on their belief that the
Caniglia’s were in crisis. Mrs. Caniglia called police
and told them about the previous days’ argument that
devolved into Mr. Caniglia putting a gun on the table
and making a suicidal comment, that Mr. Caniglia
was depressed, and that she was afraid and worried
about her husband. Captain Henry believed that if the
officers left Mr. Caniglia at his home with the guns,
he, his wife, and their neighbors could potentially be

64a
in danger. ECF No. 55 at ¶ 42. The Court finds that
the officers’ conduct was reasonable under these
circumstances. Could they have left the guns in the
home pending Mr. Caniglia’s clearance from Kent
Hospital? Perhaps, but, “[t]here is no requirement
that officers must select the least intrusive means of
fulfilling community caretaking responsibilities.”
Lockhart-Bembery, 498 F.3d at 76 (citing Colorado v.
Bertine, 479 U.S. 367, 373–74 (1987); RodriguezMorales, 929 F.2d at 786). Thus, the Court finds that
the undisputed record supports its conclusion that the
City and its officers were authorized by the community
caretaking function to send Mr. Caniglia to Kent
Hospital for a mental health evaluation and to seize
his guns.
The City’s conduct did not violate
Mr. Caniglia’s rights under the Fourth Amendment.
Even if the Court were to find that the City were
“mistaken in their judgment” and violated
Mr. Caniglia’s rights under the Fourth Amendment,
the City argues that qualified immunity protects it
from liability. Estate of Bennett, 548 F.3d at 172.
Given these facts, the Court agrees. The Court will
briefly review the legal standard for qualified
immunity as it relates to Fourth Amendment analysis.
3.

Qualified Immunity

“Qualified immunity 4 protects an officer from suit
when a reasonable decision in the line of duty ends up

4 An officer who is entitled to qualified immunity under federal
law is similarly immune from suit for the state-law equivalent of
that claim under Rhode Island law. Estrada v. Rhode Island, 594

65a
being a bad guess—in other words, it shields from
liability ‘all but the plainly incompetent or those who
knowingly violate the law.’” Belsito Commc’ns, Inc. v.
Decker 845 F.3d 13, 22–24 (1st Cir. 2016) (quoting
Ashcroft v. al­Kidd, 563 U.S. 731, 743 (2011)); see also
Morelli v. Webster, 552 F.3d 12, 19 (1st Cir. 2009). A
two-step inquiry requires the court to ask “(1) whether
the facts alleged or shown by the Plaintiff make out a
violation of a constitutional right; and (2) if so,
whether the right was ‘clearly established’ at the time
of the defendant’s alleged violation.” Maldonado v.
Fontánes, 568 F.3d 263, 269 (1st Cir. 2009) (quoting
Pearson v. Callahan, 555 U.S. 223, 243 (2009)). The
second step has two prongs:
a law is clearly
established depending on (1) “the clarity of the law at
the time of the alleged civil rights violation” and (2)
“whether a reasonable defendant would have
understood that his conduct violated the plaintiffs’
constitutional rights.” Id. The Court therefore must
inquire “whether, at the time of the intrusion, Fourth
Amendment jurisprudence signaled to the individual
defendants in this case that their conduct overstepped
constitutional boundaries.” Macdonald v. Town of
Eastham, 745 F.3d 8, 12 (1st Cir. 2014).
When the First Circuit has considered whether the
community caretaking function applies to searches
and seizures in homes as well as cars, it observed that
“the reach of the community caretaking doctrine is
poorly defined outside of the motor vehicle milieu,”
F.3d 56, 63 (1st Cir. 2010) (citing Hatch v. Town of Middletown,
311 F.3d 83, 89–90 (1st Cir. 2002)).

66a
that it “has not decided whether the community
caretaking exception applies to police activities
involving a person’s home,” and that the case law
reveals that the scope and boundaries of the
community caretaking exception are nebulous.” Id. at
13–14. The First Circuit concluded that “neither the
general dimensions of the community caretaking
exception nor the case law addressing the application
of that exception provides the sort of red flag that
would have semaphored to reasonable police officers
that their entry into the plaintiff’s home was illegal.”
Id. at 15.
Because of this ambiguity, the Court finds that it is
not clearly established that the community caretaking
exception does not apply to police activity in the home
intended to preserve and protect the public. Gemma,
818 F.3d at 32. Sending Mr. Caniglia for a voluntary
well-being check and taking his guns for his and his
family’s safety were reasonable exercises of the
officers’ mandate. The City did not force Mr. Caniglia
to go to the hospital and Mrs. Caniglia told police her
husband had guns and allowed them to enter the home
to take them. Nothing about those facts would have
led police to believe they were violating Mr. Caniglia’s
clearly established constitutional rights. The Court
thus defers to the officers’ reasonable decisions made
in the line of duty and concludes that qualified
immunity applies to bar this claim against the City.
The Court GRANTS the City’s Motion for Summary
Judgment (ECF No. 45) and DENIES Mr. Caniglia’s
Motion for Summary Judgment (ECF No. 43) as to
Count III.

67a
B.

Count II − Second Amendment of the
United States and Rhode Island
Constitutions

Mr. Caniglia’s Second Amendment claim alleges
that the City, through “a set of customs, practices, and
policies,” deprived him of his lawfully obtained and
possessed weapons for no reason. ECF No. 51 at
¶¶ 73–74. The policy at issue is that the City will take
an individual’s weapons for safekeeping without a
warrant if they believe that person may be a threat to
himself or others. Id. at ¶ 27.
The United States Supreme Court announced in
D.C. v. Heller that an individual has a right to possess
firearms in his or her home for protection, but noted
that “[l]ike most rights, the right secured by the
Second Amendment is not unlimited” and thus does
not protect “a right to keep and carry any weapon
whatsoever in any manner whatsoever and for
whatever purpose” or “for any sort of confrontation.”
554 U.S. at 595, 626 (2008) (emphasis omitted); see
also Worman v. Healey; 922 F.3d 26, 34 (1st Cir. 2019).
Keeping this limitation in mind, the Court must
consider whether the City’s justification for taking
Mr. Caniglia’s guns comes within the scope of the
Second Amendment’s protection of the right to bear
arms. If it does not, the inquiry ends.
“The issue is a sensitive one, as it implicates not
only the individual’s right to possess a firearm, but the
ability of the police to take appropriate action when
they are confronted with a firearm that may or may
not be lawfully possessed, and which, irrespective of

68a
the owner’s right to possess the firearm, may pose a
danger to the owner or others.” Sutterfield v. City of
Milwaukee, 751 F.3d 542, 572 (7th Cir. 2014).
Here, the Court finds that the City’s policy of
removing the guns from a home where an individual
threatened suicide does not affect Mr. Caniglia’s
Second Amendment right to possess a gun. Just as the
Second Amendment is not implicated when the police
seize a firearm during an arrest, or at a crime scene,
the Second Amendment is not implicated when the
police reasonably seize a gun under their wellestablished duties as community caretakers.
Moreover, it also is undisputed that the City
eventually returned Mr. Caniglia’s guns to him and
that the City did not prevent Mr. Caniglia from buying
or possessing any guns the incident in his home. ECF
No. 55 at ¶¶ 46–48. The Court has found under
similar facts that the Second Amendment does not
protect an individual’s right to possess a particular
gun. Richer v. Parmelee, 189 F. Supp. 3d 334, 343
(D.R.I. 2016) (Richer 1). The parties have presented
no new case law or argument that persuades it
otherwise.
The City’s Motion for Summary Judgment (ECF
No. 45) on Count II is GRANTED.
C.

Count IV − Fourteenth Amendment
Due Process

Mr. Caniglia moves for summary judgment on his
due process claim−the Court granted a similar motion
for the plaintiff in Richer I. Mr. Caniglia alleges that
the City violated his due process rights when it seized

69a
his guns with no policy, custom, or procedure−with no
process–for returning them. The City refused to
return Mr. Caniglia’s property for four months and
only did so after Mr. Caniglia repeatedly asked, had
his lawyer send a letter, and ultimately sued.
The Fourteenth Amendment forbids the City from
depriving “any person of life, liberty, or property,
without due process of law.” 5 “In evaluating a
procedural due process claim under the Fourteenth
Amendment, we must determine ‘whether [the
plaintiff] was deprived of a protected interest, and, if
so, what process was his due.”’ Garcia-Gonzalez v.
Piug-Morales, 761 F.3d 81, 88 (1st Cir. 2014) (citing
Logan v. Zimmerman Brush Co., 455 U.S. 422, 428
(1982)). The City held Mr. Caniglia’s property for four
months, which qualifies as a deprivation of his
property right. See Fuentes v. Shevin, 407 U.S. 67, 85
(1972) (“a temporary, nonfinal deprivation of property
is nonetheless a ‘deprivation’ in the terms of the
Fourteenth Amendment.”).
The Court’s analysis of this claim in the Richer I
case is instructive here. The Court focused on the
process due and remarked that due process “is flexible
and calls for such procedural protections as the
particular situation demands.” Richer I, 189 F. Supp.
3d 339 (quoting Morissey v. Brewer, 408 U.S. 471, 481
(1972)). Relying on the Matthews v. Eldridge test, this
Court noted the three relevant factors in determining
what procedural protections are due:
5 This constitutional right is actionable against state and
municipal officials through 42 U.S.C. § 1983.

70a
First, the private interest that will be
affected by the official action; second, the
risk of an erroneous deprivation of such
interest through the procedures used,
and the probable value, if any, of
additional or substitute procedural
safeguards;
and
finally,
the
Government’s interest, including the
function involved and the fiscal and
administrative
burdens
that
the
additional or substitute procedural
requirement would entail.
Richer I, 189 F. Supp. 3d at 339 (quoting Matthews
v. Eldridge, 424 U.S. 319, 335 (1976)). Analyzing the
first factor, the Court held that the private interest in
the “use and possession of property” ingrained in the
Fourteenth Amendment trilogy “reflects the high
value, embedded in our constitutional and political
history, that we place on a person’s right to enjoy what
is his, free of government interference.” Richer I, 189
F. Supp. 3d at 339 (quoting Fuentes, 407 U.S. at 81).
The Court concluded based on Fuentes that absent
extenuating circumstances, due process requires a
baseline of notice and an opportunity to be heard when
chattels are to be confiscated.” Richer I, 189 F. Supp.
3d at 340 (quoting Fuentes, 407 U.S. at 96).
First, the Court finds that Mr. Caniglia had a
private interest in his personal property. Second, it is
undisputed that the City took his personal property,
did not afford him any notice of how to get his property
back, and arbitrarily denied his requests for its return.
Once in litigation, the City argues that the process

71a
Mr. Caniglia should have taken advantage of was to
file a state court action under R.I. Gen. Laws § 12-5-7
to recover his property. But the burden on Mr.
Caniglia to pay filing and service fees, to hire a lawyer,
and wait for justice to ensue is too much of a barrier to
his constitutional right to enjoy his property, “free
from government interference.” Richer I, 189 F. Supp.
3d at 339 (quoting Fuentes, 407 U.S. at 81).
Finally, the Court considers the City’s interest,
articulated here as the traditional community
caretaking function of protecting the health and safety
of the public. The Court acknowledges that the City’s
officers were in a sensitive situation and acted within
reason, trusting their law enforcement instincts to
protect the Caniglia’s by removing guns from a once
volatile domestic situation that could again escalate
once the police left. That said, once Mr. Caniglia left
the hospital after being cleared by a doctor, a nurse,
and a social worker, returned home to his wife, that
exigency disappeared and without a reignition of that
fight or evidence of domestic instability, the Court
finds that Mr. Caniglia’s interest in retaining his
property outweighed the City’s interest in keeping his
guns away from him. Richer I, 189 F. Supp. 3d at 340;
Razzano v. Cty, of Nassau, 765 F. Supp. 2d 176, 189
(E.D.N.Y. 2011) (“once a person whose [guns] are
taken has the opportunity to legally obtain and
possess new [guns], the retention of that individual’s
old [guns] does not greatly protect the public from
potential harm.”). Because Mr. Caniglia has shown
there is undisputed evidence that the City denied him

72a
due process, the Court GRANTS Mr. Caniglia’s Motion
for Summary Judgment (ECF No. 45) on Count IV. 6
D.

Count V − Equal Protection

The City moves for summary judgment on Mr.
Caniglia’s Equal Protection claim. In that claim, he
alleges that he is entitled to injunctive relief against
the City’s policies, customs, and practices, which
deprived him of his legal guns in violation of the
Fourteenth Amendment. Because Mr. Caniglia fails
in both his pleading and his presentation of any
disputed material facts, his equal protection claim
cannot survive.
“The equal protection guarantee of the Fourteenth
Amendment prohibits the state from ‘deny[ing] any
person within its jurisdiction the equal protection of
the laws.”’ Pagan v. Calderon, 448 F.3d 16, 34 (1st Cir.
2006) (quoting U.S. Const. Amend. XIV, § 1). Equal
protection has been interpreted to mean that “all
persons similarly situated should be treated alike.”
City of Cleburne v. Cleburne Living Ctr., Inc., 473 U.S.
432, 439 (1985).
“Plaintiffs claiming an equal
6

On a side note, the Court feels compelled to address
Mr. Caniglia’s argument that the City’s officers took the guns
solely to cover all their bases so that they would not be subject to
liability or public censure for leaving the guns in the home. While
the Court finds that the facts and law justify the City’s actions,
his perceptions as a citizen provides all the more reason for the
City to develop “a clear procedure ... about how to review and
resolve the seizure and retention of guns.” Richer, 189 F. Supp.
3d at 340. “Appropriate procedures initiated or noticed by the
[City] would have eliminated the risk of such a lengthy
deprivation without [plaintiff] having a meaningful opportunity
to contest it.” Id. The lack of any procedure violates notions of
due process.

73a
protection violation must first identify and relate
specific instances where persons situated similarly in
all relevant aspects were treated differently.”
Buchanan v. Maine, 469 F.3d 158, 178 (1st Cir. 2006)
(emphasis in original) (internal quotation mark
omitted). “Thus, the proponent of the equal protection
violation must show that the parties with whom he
seeks to be compared have engaged in the same
activity vis-à-vis the government entity without such
distinguishing or mitigating circumstances as would
render the comparison inutile.” Cordi-Allen v. Conlon,
494 F.3d 245, 251 (1st Cir. 2007) (citing Perkins v.
Brigham & Women’s Hosp., 78 F.3d 747, 751 (1st Cir.
1996)).
Looking through the entire record, from the
complaint through the summary judgment evidence,
Mr. Caniglia does not point to any other individual
similarly situated who was treated differently. He
speculates that other gun owners could fall victim to
the City’s unconstitutional gun seizure policies and
procedures, but fails to cite any specific cases. At this
stage of the case, Mr. Caniglia’s equal protection claim
allegations are not enough to survive summary
judgment. The Court GRANTS the City’s Motion for
Summary Judgment (ECF No. 45) on Count V.
Now the Court will discuss the motions made on Mr.
Caniglia’s state law claims.
E.

Count I − Rhode Island Firearms Act

The City moves for summary judgment on
Mr. Caniglia’s claim under the Rhode Island Firearms
Act (“RIFA”), R.I. Gen. Laws § 11-47-22(b). Mr.

74a
Caniglia alleges that the RIFA limits the
circumstances under which police can prevent
individuals from possessing guns and the City’s
conduct violated the statute. To determine the exact
violative conduct, the Court finds itself taking a
circuitous route. He argues that the City took his guns
under R.I. Gen. Laws § 11-47-6, which limits those
“under guardianship or treatment or confinement by
virtue of being a mental incompetent” from possessing
a gun. He then argues that the City had no basis for
taking his guns under this section, but also asserts
that the City should have returned his guns under
§ 11-47-22(b) because the guns were not evidence of a
civil or criminal matter. The City denies that it
violated the RIFA when it took his guns.
The RIFA provides no further relief because the City
returned Mr. Caniglia’s guns to him. Richer I, 189 F.
Supp. 3d at 343 (finding that the RIFA “only
contemplates injunctive relief, and not damages.”). In
the face of this truth, Mr. Caniglia argues that he is
entitled to relief under R.I. Gen. Laws § 9-1-2 which
“provides civil liability for criminal offenses” and a
“plaintiff may recover civil damages for injury… that
results from the commission of a crime or offense,
irrespective of whether charges have been filed
against the offender.” Morabit v. Hoag, 80 A.3d 1, 4
(R.I. 2013). Mr. Caniglia asserts that “Defendants’
unwritten policy of requiring persons whose guns they
have seized to obtain an order in state court before
they return them” is a criminal act. ECF No. 51 at
¶ 69. The assertion is not supported by the facts in
this case though because it is undisputed that the City

75a
returned Mr. Caniglia’s guns without a state court
order. The City did not violate the RIFA so he is not
entitled to money damages under § 9-1-2. 7
The Court therefore GRANTS the City’s motion for
Summary Judgment (ECF No. 45) on Count I.
F.

Count VI − Rhode Island Mental
Health Law

Mr. Caniglia alleges that the Rhode Island Mental
Health Law (“RIMHL”) provides the processes
through which state actors can require an individual
to submit to care for mental health issues; specifically,
he argues that the statute dictates that before the
state moves forward with having an individual
admitted or certified to a medical or mental health
facility, it must obtain a certification from a doctor
that the individual needs immediate care. Because
the City failed to get the certification and conspired to
have him admitted to Kent Hospital for a mental
health evaluation, Mr. Caniglia alleges that it violated
the RIMHL.
Both parties move for summary judgment. The City
argues it is entitled to dismissal because first, the
RIMHL does not provide for a private right of action,
and second, there is no evidence that the City
attempted and/or conspired to have Mr. Caniglia
7 Even if there were a violation of the RIFA, “[t]he plain
language of the statute [] requires a causal connection between
the alleged crime and the claimed injury.” Kelly v. Marcantonio,
187 F.3d 192, 203 n.8 (1st Cir. 1999). Mr. Caniglia has failed to
allege or produce evidence of a causal connection between the
crime and his injury—presumably because he has his property
back and he has no evidence of current injury.

76a
admitted to Kent Hospital so no doctor certification
was required. Mr. Caniglia concedes the first point
but argues again that he has a cause of action for
damages under R.I. Gen. Laws § 9-1-2. He also argues
that that the City’s agreement to send him to the
hospital for a psychological evaluation is undisputed
evidence of a conspiracy and it is irrelevant that he
was not admitted.
Even if there is a private right of action, the scheme
legislated in the RIMHL is not a fit here. The purpose
of the RIMHL is “remedial. It was designed to
establish a due-process framework for the
commitment of mentally ill persons and for their
periodic reevaluation.” In re Doe, 440 A.2d 712, 716
(R.I. 1982). It is undisputed that the City did not seek
emergency certification for Mr. Caniglia to a medical
or mental health facility, but there is also no evidence
in the summary judgment record that the City
intended to or conspired to admit or commit Mr.
Caniglia to Kent Hospital.
Moreover, the Court imagines that it is not unusual
for police to send an individual to the hospital for an
evaluation after being summoned by a family member
to check on his or her well-being. The officers asked
Mr. Caniglia to go with Cranston rescue to get checked
out at Kent Hospital and he agreed to go. ECF No. 65
at ¶ 70. He was there for a brief time and then
released by medical staff. There is no evidence that
police officers had any contact with hospital staff
during or after the evaluation to attempt or ensure his
admission. Because the City has not violated the

77a
RIMHL, there is no crime so § 9-1-2 does not provide
Mr. Caniglia any relief.
The Court GRANTS the City’s Motion for Summary
Judgment (ECF No. 45) and DENIES Mr. Caniglia’s
Motion for Summary Judgment (ECF No. 43) on
Count VI.
G.

Count VII − Conversion

Both parties move for summary judgment on Mr.
Caniglia’s common law claim for conversion. In his
complaint, he alleges that the City seized his guns
without his permission, without legal justification,
and retained them for several months despite his
repeated requests that they be returned. The City
objects and argues that the claim should be dismissed
because the City’s actions do not legally qualify as a
conversation.
In an action for conversion, the Court focuses its
inquiry on “whether the defendant has appropriated
to his own use the chattel of another without the
latter’s permission and without legal right.” Terrien v.
Joseph, 73 R.I. 112, 53 A.2d 923, 925 (1947). “This
intentional exercise of control over the plaintiff’s
chattel must ‘so seriously interfere[] with the right of
another to control it that the [defendant] may justly be
required to pay the other the full value of the chattel.”’
Narragansett Elec. Co. v. Carbone, 898 A.2d 87, 97
(R.I. 2006) (quoting Restatement (Second) Torts
§ 222(A)(l) at 431 (1965)). Essentially, a conversion
forces a defendant to purchase the property by judicial
sale. Prosser and Keeton on Torts § 15 at 90 (5th ed.
1984).

78a
To determine if a defendant has converted property,
the Court should consider
(a) [T]he extent and duration of the actor’s exercise
of dominion or control;
(b) the actor’s intent to assert a right in fact
inconsistent with the other’s right of control;
(c) the actor’s good faith;
(d) the extent and duration of the resulting
interference with the other’s right of control;
(e) the harm done to the chattel;
(f) the inconvenience and expense caused to the
other.
Restatement (Second) of Torts § 222A(2) (1965). While
the City kept Mr. Caniglia’s property after a few
months, there is no evidence that the City intended to
assert any kind of ownership over the property; it
removed the guns from the Caniglia home in its
reasonable belief that it was in the interest of public
safety, and there is no evidence that the property was
damaged in any way. And while the City’s resistance
to returning the guns inconvenienced Mr. Caniglia,
this sole factor does not convince the Court that the
City intended to convert his property.
The Court GRANTS the City’s Motion for Summary
Judgment (ECF No. 45) and DENIES Mr. Caniglia’s
Motion for Summary Judgment (ECF No. 43) on
Count VII.
IV. CONCLUSION
Well-being checks are an important part of the work
of law enforcement, often putting officers in a position

79a
to invade the privacy of an individual’s home to protect
the health and safety of those inside and of the
community as a whole. Officers must strike a balance,
however, between responding to a crisis and
respecting the inviolate rights of community members.
Here, the Court determined from the undisputed
material facts that the City operated within its duties
to care for the community during the well-being check
on Mr. Caniglia and his family. The arm of the law,
however, can only go so far into the zone of privacy
guaranteed by the United States Constitution. The
City infringed on Mr. Caniglia’s rights when it refused
to return his property and failed to provide him with
any process of how to get it back after his health and
safety were secured.
Therefore, the Court GRANTS the City’s Motion for
Summary Judgment (ECF No. 45) as to Counts I, II,
III, V, VI, and VII. The Court GRANTS Mr. Caniglia’s
Motion for Summary Judgment (ECF No. 43) as to
Count IV and DENIES it as to Counts III, VI, and VII.
IT IS SO ORDERED.
s/John J. McConnell, Jr.
John J. McConnell, Jr.
United States District Judge
June 4, 2019

